Llrttkfr States (Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 25, 2019
Decided December 3,2019
Before
DIANE P. WOOD, Chief Judge
MICHAEL S. KANNE, Circuit Judge
No. 19-1679
CYRUS LINTON BROOKS,
Petitioner-Appellant,
v.
RANDALL R. HEPP,
Respondent-Appellee.

Appeal from the United States District
Court for the Eastern District of Wisconsin.
No. 17-C-1718
William C. Griesbach,

Judge.
ORDER

Cyrus Brooks has filed a notice of appeal from the denial of his petition under
28 U.S.C. § 2254 and an application for a certificate of appealability. We have reviewed
the final order of the district court and the record on appeal. WTe find no substantial
showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED.

Appendix - A.

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

CYRUS LINTON BROOKS,
Petitioner,
v.

Case No. 17-C-1718

RANDALL R. HEPP,
Respondent.

DECISION AND ORDER

Petitioner Cyrus Linton Brooks, who is currently serving a sentence for first-degree reckless
homicide in a Wisconsin state prison, filed a petition for federal relief from his state conviction
pursuant to 28 U.S.C. § 2254 on December 11, 2017. A Milwaukee County jury found Brooks
guilty as party to the crime and he was sentenced to thirty years of initial confinement and eight
years of extended supervision. Brooks asserts that his state court conviction and sentence were
imposed in violation of his rights under the United States Constitution. For the reasons that follow,
the petition will be denied and the case dismissed.

BACKGROUND
In March 2011, the State charged Brooks and his co-defendant, Maurice Stokes, with firstdegree reckless homicide as a party to the crime for the shooting death of Terry Baker in October
2005. They were tried separately. At Brooks’ trial, Julius Turner described the events that took
place the night before the shooting and the day of the shooting.
Turner testified that the night before the shooting, as he was walking back from a gas station,
Brooks, Stokes, and another man approached him looking for Baker. Brooks told Turner that he

Appendix - B.
Case l:17-cv-01718-WCG Filed 03/11/19 Page 1 of 11 Document 26

should stop hanging around Baker because Baker was a dead man and then showed Turner a
handgun. The next morning, Baker left Turner’s house on his bicycle, and Turner got in his car and
traveled in the same direction. Turner then heard three or four gunshots. He saw a green vehicle
that he recognized as usually being occupied by Brooks and Stokes parked in an alley. Turner
testified that he saw Brooks in the ally with a rifle and Stokes with a handgun. Brooks then aimed
his rifle at Baker as Baker was trying to flee over a fence. Brooks fired and struck Baker in the
back.
According to the autopsy, the bullet traveled through Baker’s lungs and heart, and he died
in the backyard. ECF No. 10-19 at 64:24-65:23. Although Turner did not see Stokes fire his
handgun, several .40 caliber casings were found at the scene, along with several .30-.30 spent
cartridges. The bullet fired from a .30-.30 rifle that passed through Baker was found in his clothes
at the autopsy. Id. at 67:7-16.
The preliminary hearing testimony of Michael Henderson, who failed to respond to a
subpoena, was also read to the jury. Henderson testified that he was about two houses away from
the location of the shooting. He testified that he saw Stokes with a gun, chasing Baker, and saw
Stokes fire toward Baker. He did not see anyone else chasing or shooting at Baker. The State’s
theory was that Henderson’s observations were at the beginning of the chase, that Brooks fired the
fatal shot, but that both were criminally responsible. Based upon this and other evidence, the jury
found Brooks guilty of first-degree reckless homicide.
Brooks subsequently filed a postconviction motion, which the circuit court denied. The
Wisconsin Court of Appeals affirmed Brooks’ conviction. State v. Brooks, No. 2013AP2260-CR,
2014 WI App 110 (Wis. Ct. App. Sept. 30,2014). The Wisconsin Supreme Court denied Brooks’
2
',*r'

App. B/l.
Case l:17-cv-01718-WCG Filed 03/11/19 Page 2 of 11 Document 26

petition for review on February 10, 2015. On October 5, 2016, Brooks filed a pro se collateral
appeal brief with the Wisconsin Court of Appeals.

The Court of Appeals affirmed the

postconviction order denying relief. See State v. Brooks, No. 2016AP974, (Wis. Ct. App. Aug. 3,
2017). The Wisconsin Supreme Court denied Brooks’ petition for review on November 13,2017.
ANALYSIS
The petition is governed by the Antiterrorism and Effective Death Penalty Act (AEDPA),
28 U.S.C. § 2254. Under AEDPA, a federal court may grant habeas relief only when a state court’s
decision on the merits was “contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by” decisions from the Supreme Court, or was “based on an
unreasonable determination of the facts.” 28 U.S.C. § 2254(d); see also Woods v. Donald, 135 S.
Ct. 1372, 1376 (2015). A state court decision is “contrary to ... clearly established Federal law”
if the court did not apply the proper legal rule, or, in applying the proper legal rule, reached the
opposite result as the Supreme Court on “materially indistinguishable” facts. Brown v. Payton, 544
U.S. 133, 141 (2005). A state court decision is an “unreasonable application of . . . clearly
established Federal law” when the court applied Supreme Court precedent in “an objectively
unreasonable manner.” Id.
This is, and was meant to be, an “intentionally” difficult standard to meet. Harrington v.
Richter, 562 U.S. 86,102 (2011). “To satisfy this high bar, a habeas petitioner is required to ‘show
that the state court’s ruling on the claim being presented in federal court was so lacking in
justification that there was an error well understood and comprehended in existing law beyond any
possibility for fairminded disagreement.” Woods, 135 S. Ct. at 1376 (quotingHarrington, 562 U.S.
at 103).
3

App. B/2.
Case l:17-cv-01718-WCG Filed 03/11/19 Page 3 of 11 Document 26

?

\

A. Right to Confrontation
Brooks asserts that he was denied his right to confrontation under the Sixth Amendment.
The Sixth Amendment’s Confrontation Clause provides that in all criminal prosecutions, “the
accused shall enjoy the right... to be confronted with the witnesses against him.” U.S. Const.
amend. VI. In Crawford v. Washington, the Supreme Court found that the Confrontation Clause
bars “admission of testimonial statements of a witness who did not appear at trial unless he was
unavailable to testify, and the defendant.. . had a prior opportunity for cross-examination.” 541
U.S. 36,53-54 (2004). Subsequently, inBullcomingv. New Mexico, the Supreme Court addressed
“whether the Confrontation Clause permits the prosecution to introduce a forensic laboratory report
containing a testimonial certification—made for the purpose of proving a particular fact—through
the in-court testimony of a scientist who did not sign the certification or perform or observe the test
reported in the certification.” 564 U.S. 647, 652 (2011).

There, the Court reviewed the

admissibility of a BAC report authored and signed by a non-testifying analyst. The report was
introduced at trial through a surrogate analyst to prove that the defendant had a BAC level of 0.21.
The Court held that the Confrontation Clause prohibits an analyst from testifying about a report
completed by another analyst when the testifying analyst neither participated in nor observed or
reviewed the other’s analysis and did not have an “independent opinion” concerning the forensic
testimony. Id. at 655.
In this case, Dr. K. Alan Stormo conducted an autopsy of Baker’s body on October 30,2005.
Dr. Stormo retired prior to trial, and the prosecution called Dr. Wieslawa Tlomak to testify about
Baker’s cause of death at Brooks’ trial. She testified that it was her opinion, to a reasonable degree
of medical certainty, that Baker’s cause of death was gunshot wounds to his chest. Brooks asserts
4

App. B/3.
Case l:17-cv-01718-WCG Filed 03/11/19 Page 4 of 11 Document 26

that his confrontation rights were violated because he could not confront the medical examiner who
performed the autopsy.
The Court of Appeals found that Brooks failed to establish that he was denied his right to
confrontation. In reaching this determination, the court relied on the Wisconsin Supreme Court’s
decision in State v. Williams, which held that “the presence and availability for cross-examination
of a highly qualified witness, who is familiar with the procedures at hand, supervises or reviews the
work of the testing analyst, and renders her own expert opinion” satisfies a defendant’s
confrontation rights, “despite the fact that the expert was not the person who performed the
mechanics of the original tests.” 2002 WI 58, f 20, 253 Wis. 2d 99, 644 N.W.2d 919. The court
also noted that the Wisconsin Supreme Court later reiterated in State v. Griep that “expert testimony
based in part on tests conducted by a non-testifying analyst satisfies a defendant’s right of
confrontation if the expert witness: (1) reviewed the analyst’s test, and (2) formed an independent
opinion to which he testified at trial.” 2015 WHO, fflf 3,47-57,316 Wis. 2d 657, 863 N.W.2d567.
Applying these principles, the Court of Appeals found that the analyst who testified as to Baker’s
cause of death satisfied both prongs of this test and did not violate Brooks’ confrontation right. See
ECFNo. 10-11 at 6-7.
While Brooks relies on Bullcoming to support his position that the prosecution was required
to call the analyst who created the autopsy report as a witness, the testifying medical examiner here
was more than a “surrogate” witness. As the Wisconsin Court of Appeals explained, the testifying
medical examiner testified that she was a forensic pathologist for the Milwaukee County Medical
Examiner’s Office and had performed approximately 1,300 autopsies. She stated that she actively
reviewed Baker’s file, including the autopsy report and photographs, and reached her own
5

App. B/4.
Case l:17-cv-01718-WCG Filed 03/11/19 Page 5 of 11 Document 26

independent opinions regarding Baker’s cause of death. See id. at 7. The analyst was able to
convey what those opinions were and Brooks had an opportunity to confront her about the same.
Bullcoming does not compel the conclusion that the analyst’s testimony infringed Brook’s
confrontation right. The Seventh Circuit reached essentially the same conclusion in United States
v. Maxwell, 724 F.3d 724 (7th Cir. 2013), in upholding the admissibility of the testimony of a lab
analyst as to the nature of a controlled substance in reliance on information gathered and produced
by an analyst who did not himself testify. I therefore cannot say that the Wisconsin Court of
Appeals unreasonably applied clearly established federal law in concluding that Brooks was not
denied his right to confrontation. Brooks is not entitled to federal habeas relief on this claim.
B. Ineffective Assistance of Counsel
Brooks has raised a number of arguments suggesting that his trial counsel and appellate
counsel were ineffective. A claim of ineffective assistance of counsel is governed by wellestablished law set forth by the United States Supreme Court in Strickland v. Washington, 466 U.S.
668 (1984). Under Strickland, the petitioner must show that (1) counsel’s representation was
deficient in that it fell below an objective standard of reasonableness and (2) counsel’s deficient
performance deprived the defendant of a fair trial. Id. at 687-88. A petitioner satisfies the first
prong if he demonstrates that “counsel’s representation fell below an objective standard of
reasonableness.” Id. To satisfy the second prong, a petitioner must demonstrate that “there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Id.
“It is all too tempting for a defendant to second-guess counsel’s assistance after conviction
or adverse sentence, and it is all too easy for a court, examining counsel’s defense after it has proved
6

App. B/5.
Case l:17-cv-01718-WCG Filed 03/11/19 Page 6 of 11 Document 26

$

s.

L7

unsuccessful, to conclude that a particularized act or omission from counsel was unreasonable.”
Id. at 689. For this reason, the Supreme Court has made clear that “judicial scrutiny of counsel’s
performance must be highly deferential.” Id. That is, “a court must indulge a strong presumption
that counsel’s conduct falls within the wide range of reasonable professional assistance,” and that
“the defendant must overcome the presumption that, under the circumstances, the challenged action
‘might be considered sound trial strategy.’” Id. (quoting Michel v. Louisiana, 350 U.S. 91, 101
(1955)).
1. Trial Counsel
Brooks claims his trial counsel was ineffective for failing to investigate footprint evidence
obtained from the hood of a car at the crime scene. This evidence revealed that the footprints
crossing the hood of the car were size 11 to 1154. Brooks argues that because he wears a size 9 to
914 shoe, he could not have left the footprints on the hood of the car. The Court of Appeals
determined this evidence was not exculpatory. The court explained, the evidence at trial was that
there were two men with guns, Brooks and Stokes, chasing Baker before he was killed. Therefore,
the evidence that the footprints did not belong to Brooks would not have been exculpatory. The
state court’s conclusion was eminently reasonable and so federal habeas relief is unavailable.
Brooks also argues that he is entitled to habeas relief on his claim that trial counsel was
ineffective for failing to subpoena Michael Henderson to testify at trial. Henderson testified at
Brooks’ preliminary hearing. He testified that he was approximately two houses away from where
the shooting occurred and did not see anyone else firing a gun at Baker or chasing Baker except
Stokes. Henderson never testified that Brooks had any involvement in the shooting. Henderson
later testified at Stokes’ trial. His testimony there contradicted the testimony he provided at Brooks’
7

App. B/6.

Case l:17-cv-01718-WCG Filed 03/11/19 Page 7 of 11 Document 26

preliminary hearing. In particular, Henderson indicated that he saw another person with Stokes; that
the other person was caramel-skinned with braids; that Baker approached the two men on his
bicycle, but jumped off the bicycle and ran between the houses, out of Henderson’s sight; and that
Henderson heard gunshots but did not see who was shooting. The State listed Henderson as a
witness it planned to call at Brooks’ trial, and Brooks’ trial counsel believed he could rely on the
State’s subpoena to produce Henderson for trial. When the parties could not secure Henderson as
a witness, Henderson’s preliminary hearing testimony was read to the jury.
Brooks claims he was prejudiced by his counsel’s failure to have Henderson testify about
the caramel-skinned person involved in the shooting. But as the state courts noted, Henderson’s
preliminary hearing testimony in which he denied the existence of a second shooter was more
favorable to Brooks than Henderson’s testimony at Stokes’ trial because the jury could have still
reasonably concluded from the testimony regarding a caramel-skinned individual that Brooks was
the second shooter. In other words, any testimony about a caramel-skinned individual would not
have tipped the outcome of the case, and thus there was no showing of prejudice. This is a
reasonable conclusion that does not come close to reaching the federal AEDPA standard for habeas
relief.' Moreover, if Henderson failed to appear in response to the prosecution’s subpoena, there is
no reason to believe he would have shown in response to a subpoena issued by the defense.
Finally, Brooks claims his trial counsel was ineffective for failing to preserve a claim that
the State “purchased” a witness to falsely testify at his preliminary hearing. The evidence Brooks
relies on to support his position is a letter from the assistant district attorney to the administrative
law judge which states that the witness had cooperated with the State by testifying truthfully at the
preliminary hearing as to an admission that Brooks made to him in custody and that the State had
8

App. B/7.
Case l:17-cv-01718-WCG Filed 03/11/19 Page 8 of 11 Document 26

promised only to make thejudge aware of the witness’ cooperation. ECFNo. 13-1. As the Court
ofAppeals noted, nothing in the letter suggests that the State presented knowingly false information
at the preliminary hearing. ECF No. 10-11 at 7-8. It thus follows that Brooks’ trial counsel was
not ineffective for failing to preserve this claim. The court of appeals’ decision was not contrary
to clearly established federal law.
2. Appellate Counsel
Brooks claims that appellate counsel was ineffective for failing to investigate his claim that
the State’s witness had been paid by the victim’s family to identify Brooks as the individual who
committed the crime and for failing to investigate the footprint evidence. These claims were not
exhausted in the state courts. A district court may not adjudicate a habeas petition that contains both
claims that have been exhausted and claims that have not been exhausted. Rose v. Lundy, 455 U.S.
509, 510 (1982). Rather than dismiss a petition containing both exhausted and unexhausted claims,
“a district court might stay the petition and hold it in abeyance while the petitioner returns to state
court to exhaust his previously unexhausted claims. Once the petitioner exhausts his state court
remedies, the district court will lift the stay and allow the petitioner to proceed in federal court.”
Rhines v. Weber, 544 U.S. 269, 275-76 (2005). A stay should not be granted automatically,
however:
Staying a federal habeas petition frustrates AEDPA’s objective of encouraging
finality by allowing a petitioner to delay the resolution of the federal proceedings.
It also undermines AEDPA’s goal of streamlining federal habeas proceedings by
decreasing a petitioner’s incentive to exhaust all his claims in state court prior to
filing his federal petition.
Id. at 277. A stay should not be granted when there is not good cause for the petitioner’s failure to
exhaust his claims first in state court or when the unexhausted claims are plainly meritless. Id.
9

App. B/8.
Case l:17-cv-01718-WCG Filed 03/11/19 Page 9 of 11 Document 26

In this case, Brooks’ claims are plainly meritless. As an initial matter, Brooks claims that
appellate counsel was ineffective for failing to investigate his claim that the State’s witness had
been paid by the victim’s family to identify Brooks as the individual who committed the crime.
Brooks asserts that he had an affidavit from Shawnrell Simmons who was in the Milwaukee County
Jail with Turner, one of the State’s eye witnesses to the events. Simmons averred that Turner told
him that he did not want to testify because he did not even see his friend get murdered and he
accepted cash from someone to testify against two men. Turner allegedly told Simmons that he took
the money and went back to Texas. The Court of Appeals concluded the circuit court properly
rejected Simmons’ affidavit because it was based on hearsay and was not supported by
corroborating evidence. It held that the evidence did not warrant a new trial on the ground of newly
discovered evidence. As to his claim that his appellate counsel was ineffective for failing to
investigate and undertake the development of the footprint forensic evidence, the Court of Appeals
concluded that trial counsel was not ineffective in failing to investigate the footprint evidence
because that evidence was not exculpatory. Appellate counsel cannot be ineffective for failing to
raise issues in which the Court of Appeals finds no merit. In light of the Court of Appeals’
conclusions, I find no merit to these claims. Accordingly, there is no reason to stay this petition to
allow Brooks to exhaust these claims in state court and those claims will be dismissed.
C. Evidentiary Hearing
Finally, Brooks requests an evidentiary hearing in this court. A state court’s factual findings
are presumed correct unless the petitioner rebuts this presumption with clear and convincing
evidence. 28 U.S.C. § 2254(e)(1). Although Brooks asserts the state court’s factual determination
was unreasonable, he does not identify any particular finding as incorrect. Brooks has not submitted

App. B/9.
10
Case l:17-cv-01718-WCG Filed 03/11/19 Page 10 of 11 Document 26

»

'*■'

-

clear and convincing evidence to rebut the presumption that the state court’s findings were correct.
Accordingly, Brooks is not entitled to an evidentiary hearing.
CONCLUSION
For the reasons given above, the petition is DENIED! A certificate of appealability will be •
denied. I do not believe that reasonable jurists would believe that Brooks has made a substantial
rshowing of the denial of a constitutional right.
The Clerk is directed to enter judgment denying the petition and dismissing the action. A
dissatisfied party may appeal this court’s decision to the Court of Appeals for the Seventh Circuit
by filing in this court a notice of appeal within 30 days of the entry ofjudgment. See Fed. R. App.
P. 3, 4. In the event the petitioner decides to appeal, he should also request the court of appeals to
issue a certificate of appealability. Fed. R. App. P. 22(b).
SO ORDERED this 11th day of March, 2019.
s/ William C. Griesbach
William C. Griesbach, Chief Judge
United States District Court

App. B/10.
11
Case l:17-cv-01718-WCG Filed 03/11/19 Page 11 of 11 Document 26

AO 450 (Rev. 5/85) Judgment in a Civil Case

United States District Court
EASTERN DISTRICT OF WISCONSIN

CYRUS LINTON BROOKS,
Petitioner,
JUDGMENT IN A CIVIL CASE
Case No. 17-C-1718

v.
RANDALL R. HEPP,
Respondent.
□

Jury Verdict. This action came before the Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict

Kl

Decision by Court. This action came before the Court for consideration.

IT IS HEREBY ORDERED AND ADJUDGED that the petition is denied and this
action is DISMISSED. A certificate of appealability will be denied.
Approved:

s/ William C. Griesbach
William C. Griesbach, Chief Judge
United States District Court

Dated: March 11,2019
STEPHEN C. DRIES
Clerk of Court
s/ Mara A. Corpus
(By) Deputy Clerk

Appendix - G.
Case l:17-cv-01718-WCG Filed 03/11/19 Page 1 of 1 Document 27

* £*V.'
V>

.« ^

’

ME OF WISCONSIN

-fy

*

- - .......'•>+*'

(Attachment
/-or uniaai use umy

MILWAUKEE COUNTY

CIRCUIT COURT BRANCH 29

Judgment of Conviction

ite of Wisconsin vs. Cyrus Linton Brooks

Sentence to Wisconsin State
Prisons and Extended
Supervision
Case No. 2011CF001651

tP nf Birth: 09-06-1984

FILED
11-21-2011
Clerk of Circuit Court
Milwaukee County, Wl

t Aliases: AKA Cyros Brooks
The defendant was found guilty of the following crime(s).
. Description

[939.05 Party to a Crime]
1 st-Degree Reckless Homicide

Violation

Plea

Severity

Date(s)
Committed

940.02(1)

Not Guilty

.Felony B

10-29-2005

IT IS ADJUDGED that the defendant is guilty as

Agency

>tai Bifurcated Sentence Time

t. Sent. Date
1-1-18-2011
11-18-2011

11-18-2011

Jury

10-13-2011

Comments

Extended Supervision
Years Months Days
0
0
8

Comments
Length

Sentence

Date(s)
Convicted

convicted and sentenced as follows:

Length
. Sent. Date Sentence ____________
11-18-2011 State Prison w/ Ext Supervision 38 YR

■-"nement Period
Months Days
:.
fears
0
0
CO

Trial
To

Agency

.Restitution
Costs

Firearms/Weapons Restrict

Total Length of Sentence
Years Months Days
0
0
38

Comments____________ _______ _______
In the amount of $7,380.00 to Janice B.
Provide DNA sample, pay surcharge. Pay all cost:
and surcharges.
AS TO RESTITUTION/COSTS/SURCHARGES:
To be paid from up to 25% of prison funds.
Court advised defendant that as a convicted felon,
he may not possess firearms.; his voting rights are
suspended, he may not vote in any election until
his civil rights are restored.

Sentence Concurrent With/Consecutive Information:
Concurrent with/Consecutive To Comments
_
Type
Ct. Sentence
Consecutive to any other sentence._________
Consecutive
• 1
State prison
onditions of Extended Supervision:
Ct.
Condft<on______ ■
Employment / School
1 ^
Prohibitions
1

.

1

Arjencv/Proaram
--------

Comments_______
Seek/maintain full time employment.
No further violations of the law.
No weapons.
No contact with Maurice Stokes, Xavier Bales or any
member of the victim’s family.
Follow aH rules.

Other

londitions of Sentence or Probation
(Total amounts only)
. Obligations:

Fine

Court Costs
20.00

Attorney
* Fees

Cl Joint and Several
Restitution
7,380.00

Other

746.00

Mandatory
Victim/Wit.
Surcharge
85.00

5% Rest.
Surcharge
424.05

DNA An
Surchar

Appendix - D.

250.

*

a

1

1

cA

.a;‘.v

(Att
UTE OF WISCONSIN

CIRCUIT COURT BRANCH 29

Judgment of Conviction

ite of Wisconsin vs. Cyrus Linton Brooks

Sentence to Wisconsin State
Prisons and Extended
Supervision

Case No. 2011CF001651

:e of Birth: 09-06-1984

For Official Use Only

MILWAUKEE COUNTY

FILED
11-21-2011

Clerk of Circuit Court
Milwaukee County, Wl

ThatrrSfeductionsentenc^^pra^y^Te^l^^reerioS^atefn^nTsSs™^ fear her criminogenic
factors and his or her risk of reoffending, and to participate in programming or treatment the department develops for the
person under §302.042(1). The court imposes a Risk Reduction sentence.
rsuant to §973.01 (3g) and (3m) Wisconsin Statutes, the court determines the following:
3 Defendant is □ is not ® eligible for the Challenge Incarceration Program.
2 Defendant is □ is not {X} eligible for the Earned Release Program.
IT IS ADJUDGED that 0 days sentence credit are due pursuant to §973.155, Wisconsin Statutes
IT IS ORDERED that the Sheriff shall deliver the defendant into the custody of the Department.
BY THE COUftT:

■v

. Distribution: -

Qectronically sigrfed by John Barrett
ferk/Depaty-eter*
Circuit Court-.
.* .
November 21 /Ubil

Richard J. Sankovitz-29, Judge
Deals Stingl, District Attorney
, Patrick B Flanagan, Defense Attorney

Date

■*

*

«

App.

D/1.

(Attachment -

STATE OF WISCONSIN

CIRCUIT COURT
Branch 38

MILWAUKEE COUNTY

STATE OF WISCONSIN,
Plaintiff,
FlLEt?
CRIMINAL DflVISION

VS.

CYRUS BROOKS,

38

Defendant.

OCT

12013

38

Case No. 11CF001651

JOHN BARRETT
Clerk of Circuit Court

DECISION AND ORDER
DENYING MOTION FOR POSTCONVICTION RELIEF
On August 12, 2013, the defendant by his attorney filed a motion for dismissal of the
above case on grounds that his right to a speedy trial was violated. He also seeks a new trial on
the basis of newly discovered evidence and ineffective assistance of counsel. He was charged
with first degree reckless homicide as a party to a crime for the shooting death of Terry Baker. A
jury trial was held.before the Hon.Richard J. Sankovitz on October 10-13, 2011, after which the
jury found the defendant guilty as charged.

On November 18, 2011, the defendant

was

sentenced to 38 years in prison (thirty years of initial confinement and eight years of extended
supervision). The case was assigned to this court as the successor to Judge Sankovitz’s homicide
calendar.
Defendants Cyrus Brooks and Maurice Stokes approached the victim, who ran from them
and was shot twice in the back. Julius Turner testified that he was with Terry Baker on the
morning just before he was killed. He testified that Baker had left his (Turner’s) house around
11 pan. on his bicycle. (Tr. 10/11/11, pp. 72-75). Turner got in his car, went in the same
direction as Baker, and then heard three or four shots. (Id. at 76). He said he saw a green
1

Appendix - E.

car

(Att-#:

generally associated with the defendant and that both defendant Brooks and defendant Stokes
were outside of the car taking aim at the victim with guns. (Id. at 77-79). He testified that he
saw Brooks fire a shot at Baker as he was jumping a fence. (Id. at 79-80). He did not see Stokes
fire his gun, but he saw him aiming a gun with his arm extended. (Id. at 81). On crossexamination, Turner admitted that he did not originally tell police about seeing Brooks chase the
victim down the alley and shoot him. (Id. at 91). However, he told detectives that he knew
Brooks and Stokes were responsible, even though he didn’t want to admit he had actually seen
the shooting. (Id. at 92). He explained that the reason he did not tell police everything originally
was because he feared for his safety. (Id. at 67-68).
A speedy trial demand was made on June 1, 2011. A trial date was scheduled for
October 3, 2011 and adjourned to October 10,2011. The defendant asserts that 123 days passed
from the time a speedy trial demand was made until the actual trial took place, which he claims
was without any articulated reason. He maintains that his speedy trial demand should have been
honored before September 7,2011.
The court issued a briefing schedule, to which the parties have responded. The State
maintains that the defendant’s June 1, 2011 speedy trial demand was made before the
information was filed, and that sec. 971.10(2)(a), Wis. Stats., does not permit the defendant to
assert a speedy trial demand until the information is filed. The information was filed on June 9,
2011,' and a speedy trial demand was not made after that date. The court concurs wholly with
the State’s overall analysis of this issue and finds that the defendant’s right to a speedy trial was
not violated. In addition, the court cannot find the defendant was prejudiced by the relatively
short delay given the fact that he was sitting in prison in connection with another case through
July of 2012. {See Motion, p. 5).
The preliminary hearing with regard to Brooks had been adjourned from April 25,2011 to June 1,2011.
2

App. E/1.

-i. \ • r

<1

(Att-#

The defendant also asserts that newly discovered evidence exists in the form of two
affidavits. One is from Brandon Brumfeld, who states that he was with Julius Turner when he
was walking back from the gas station on 46th and Lisbon and that
approached them were either Cyrus Brooks or Maurice Stokes.

none of the men who

He further states that the

victim’s family “wanted him to say that Mr. Brooks and Mr. Stokes were at the scene of the
shooting” and offered him money to do so.2 He also adds that he never saw Stokes" or Brooks at
the scene of the shooting.
The other affidavit is from Shawnrell Summons, who states that he was in jail with Julius
Turner, who testified against the defendant at his trial. Turner purportedly told Simmions that he
did not want to testify because he did not see who had shot the victim. He said that he took
money to testify against Brooks and Stokes and left for Texas.
Before a new trial may be awarded based on a claim of newly discovered evidence, the
defendant must demonstrate (1) that new evidence was discovered after the trial; (2) that the
defendant was not negligent in failing to discover the evidence before trial; (3) that the evidence is
material; (4) that the evidence is not cumulative; and (5) that there exists a reasonable probability of
a different result at a new trial. State v. Brunton. 203 Wis.2d 195, 200 (Ct. App. 1996); State v.
Cooean, 154 Wis.2d 387,394-95 (1990).
The State’s position is that the affidavit of Brandon Brumfeld is “not inconsistent” [sic?]3
with the testimony of Julius Turner, but then argues that Brumfeld’s statement does not line up
with Turner s trial testimony. It doesn’t, which gives it a certain degree of untrustworthiness and
unreliability. Brumfeld says he was with Julius Turner walking from a gas station around 46^

2 There are no further specifics in this regard as to who or what person from the victim’s family offered him money
to testify as he relates in his affidavit.
3 The court believes the State intended to say “not consistent” rather than “not inconsistent” at page 4 of its brief.
3

App. E/2.

(Att-#

and Lisbon when three men approached them asking for the whereabouts of Terry Baker. He
says the men told them that Baker was going to get what he had coming, and that none of these
men were Brooks or Stokes. He then says that “within minutes,” he heard shots and, 45 minutes
to an hour later learned that Baker had been killed. {Brumfeld Affidavit, pp. 2-3).
Turner, on the other hand, testified that the night before the shooting, he was walking
back from a gas station on 46th and Lisbon when Brooks, Stokes and another man approached
him looking for Terry Baker. (Tr. 10/12/11, a.m., pp. 31-32). The men told him that Baker was
a dead man, and Brooks showed Turner a handgun. (Id. at 34). Brumfeld’s statement is not
plausible. Turner said he was in his car minutes before the shooting, not walking from the gas
station on 46th and Lisbon. Turner is talking about his walk from the gas station the night before
the shooting; Brumfeld is talking about a walk from the gas station on the day of the shooting,
which is not consistent with Turner’s version of events. It appears that he is attempting to help
Brooks but has. not gotten his facts straight. In any event, given that the two are talking about
different days, Brumfeld’s affidavit does nothing to detract from Turner’s trial testimony about
what happened with Brooks and Stokes approaching him the night before the shooting. Not only
is it inherently unreliable based on its mismatched facts, but it is not evidence that would be
reasonably probable to alter the outcome of the trial.
With regard to the affidavit of Shawnrell Simmions, the State contends that the affiant’s
name is actually Shawnrell Simmons who has an extensive prior record which calls his
credibility into question. Without assessing credibility, the court finds that the affidavit is simply
not sufficient for purposes of obtaining either a new trial or an evidentiary hearing. Simmion’s
(or Simmons’) affidavit is based on hearsay and is not supported by any corroborating evidence,
“A new trial may be based on an admission of peijury only if the facts in the affidavit are

4

App. E/3.

(Att-#

corroborated by other newly discovered evidence.” Nicholas v. State. 49 Wis. 2d 683, 694
(1971). The affidavit of “Simmions” essentially states that Turner perjured himself; however,
there is no affidavit from Turner, only hearsay as to what Turner purportedly told “Simmion.”
The defendant has not presented any other evidence to corroborate the facts contained in
Turner’s cellmate’s affidavit, and there are no inherent guarantees of the reliability of the
statement that Turner purportedly made to cellmate “Simmion.” Without more, “[evidence that
merely impeaches the credibility of a witness does not warrant a new trial...." Greer v. State,
40 Wis. 2d 72, 78 (1968). “Simmion’s” affidavit is not sufficient for purposes of retaining an
evidentiary hearing.
Finally, the defendant contends that trial counsel was ineffective for failing to subpoena
Michael Henderson, who originally testified in the first preliminary hearing held in which he
stated that he did not see anyone else firing a gun except Maurice Stokes.at the time of the
shooting.
Strickland v. Washington. 466 U.S. 668, 694 (1984), sets forth a two-part test for
determining whether an attorney's actions constitute ineffective assistance: deficient performance
and prejudice to the defendant. Under the second prong, the defendant is required to show "'that
there is a reasonable probability, but for counsel's unprofessional errors, the result of the proceeding
would have been different.'" Id. at 694; also State v. Johnson. 153 Wis.2d 121, 128 (1990). A
reasonable probability is a probability sufficient to undermine confidence in the outcome. Id. A
court need not consider whether counsel's performance was deficient if the matter can be resolved
on the ground of lack of prejudice. State v. Moats. 156 Wis.2d 74, 101 (1990). "Prejudice occurs
where the attorney's error is of such magnitude that there is a reasonable probability that, absent the

5

App. E/4.

(Att-#

error, 'the result of the proceeding would have been different.' Strickland. 466 U.S. at 694 . . .. "
State v. Erickson. 227 Wis.2d 758.769 (19991
Evidently, trial counsel thought the State was going to call Michael Henderson at trial,
but the State indicated it could prove its case without him and didn’t call him. The defendant
now contends that additional testimony from Henderson or additional questioning of him would
have made a difference in his case. This conclusion is predicated on Henderson’s testimony at
co-defendant Stokes’ trial wherein he stated that two men were involved in the shooting incident,
identifying one of the men as Stokes and the other as a “caramel skinned male with braids.”
{Motion, p. 13, citing to the Stokes trial transcript from 6/27/12, p. 8). He did not identify the
second individual as the defendant because he said he did not see his face due to the particular
clothes the person was wearing (hooded sweatshirt)(jee page two of police report attached to
defendant’s motion). The defendant argues that if Henderson Could not see the second man’s
face, Julius Turner’s identification is suspect because of the kind of difficulty Henderson had in
identifying the second individual.
As indicated previously, Julius Turner testified that the night before the shooting, Cyrus
Brooks and Maurice Stokes approached him as he was walking back from a gas station on 46th
and Lisbon. (Tr. 10/12/11, a.m„ p. 32). He said they were looking for Terry Baker and that he
(Turner) better stop hanging around Baker because he was a “dead man.” (Id. at 34). Brooks
then showed him a gun that he pointed in Turner’s face while talking. (Id at 34-35). When he
was in his vehicle the next day, Turner heard shots and saw a green vehicle parked at the end of
an alley. (Tr. 10/11/11, p. 77). He testified that he recognized the vehicle as usually being
occupied by Cyrus Brooks and Maurice Stokes (Id), and he said he saw both of those men with
guns taking aim at Terry Baker and Brooks firing a shot. (Id at 78-79). Turner had turned onto

6

App. E/5.

(Att-#_.

Meinecke from 46th Street towards the area of the shots. (Id, at 76). Henderson was at a
different location. He was on his porch at 2356 N. 47th Street. The shooting occurred at 2351 N.
46 Street, and Henderson testified at the preliminary hearing that he was about four houses
away from 47th and Meinecke where the shooting took place. (Tr. 4/25/11, p. 8). Henderson
testified that he heard shots and then lost sight of all the men. (Id at 13).
Simply because Brooks could not be identified by Henderson from his porch as the man
with Stokes does not mean that Turner could not identify him from his car on Meinecke.
Henderson’s preliminary hearing testimony was read to the jury in which he stated that he said
he only saw one person involved in the shooting (Stokes). Although the defendant now contends
that trial counsel was ineffective because Henderson could not be questioned as to what else he
saw on the day of the shooting about the presence of another individual (Motion, p. 13), or his
inability to identify the second man as Brooks,4 he has not set forth anything to show that
Henderson would have testified favorably in his case or any differently from the testimony that
was read to the jury from the preliminary hearing. He hasn’t shown what additional facts
Henderson would have testified to at all, nor has he provided an affidavit from Michael
Henderson indicating what else he might have seen that day, that would have been reasonably
probable to undermine the result of the trial, and therefore, he has not established that he was
prejudiced by counsel’s failure to call Michael Henderson to testify at trial. Furthermore, the
court agrees with the State that the preliminary hearing testimony as read to the jury strongly
favored the defendant’s case because Henderson singled out Stokes as the only person he saw

44 When questioned by police, he said he saw two people involved in the shooting, one of whom was Stokes and the
other with a dark hooded sweatshirt that he could not identify. (Police report attached to defendant’s motion, p. 2).
1

App. E/6.

(Att-#

that day, the only person he saw chasing Baker, and the only person who shot Baker.5

Given

Henderson’s testimony in Stokes’ trial, the jury would have heard that he also saw a second man
- the “caramel skinned male with braids” (Tr. 6/27/12, p. 8, Stokes’ trial). The jury could still
have reasonably concluded from Turner’s testimony that the second man was the defendant.
Trial counsel cannot be deemed to be ineffective for failing to call Henderson.
For all of the above reasons, the court denies the defendant’s motion for dismissal or for a
new trial. He has not established a speedy trial violation; he has not met the standard for
obtaining a hearing for newly discovered evidence; and he has not established that trial counsel
was ineffective for failing to timely subpoena Michael Henderson.
THEREFORE, IT IS HEREBY ORDERED that the defendant’s motion for
postconviction relief (dismissal or a new trial) is DENIED.
Dated this

day of October, 2013, at Milwaukee, Wisconsin.
BY THE COURT:
,\\Ut HI/,,

%fT5!^W
'•Hi
U"'
hu

5 Q Okay. At no time did you see anyone else firing a gun other than Maurice Stokes? Is that what your testimony
is, yes?
A Yes. (Tr. 10/12/1 l,p. 27).
Q Mr. Henderson, is it fair to say that you only saw Mr. Stokes chasing Mr. Baker and saw no other individuals
involved in the chase of Mr. Baker?
A Yes. (Id. at p. 28).
8
App. E/7.

COURT OF APPEALS
DECISION
DATED AND FILED
September 30,2014
Diane M. Fremgen
Clerk of Court of Appeals

Appeal No.

2013AP2260-CR

STATE OF WISCONSIN

NOTICE
This opinion is subject to farther editing. If
published, the offldal version will appear in
the bound volume of ihe Official Reports.
A party may file with the Supreme Court a
petition to review an advene decision by the
Court or Appeals. See WlS. Stat. § 808.10
and Rule 809.62.
Cir.CtNo. 2011CF16S1

IN COURT OF APPEALS
DISTRICT I

State of Wisconsin,
Plaintiff-Respondent,

v.
Cyrus Linton Brooks,
Defendant-Appellant.

APPEAL from a judgment and an order of the circuit court for
Milwaukee County: RICHARD SANKOVITZ and JEFFREY WAGNER, Judges.
Affirmed.
Before Hoover, P. J., Stark, J., and Thomas Cane, Reserve Judge.
PER CURIAM. Cyrus Brooks appeals a judgment convicting him
111
of first degree reckless homicide as a party to a crime and an order denying his

Appendix - F.
Case l:17-cv-01718-WCG Filed 02/28/18 Page .19 of 85 Document 10-6

101

:<y

!/

No. 2013AP2260-CR

postconviction motion.1 He argues: (1) the case should have been dismissed
because the State violated his constitutional right to a speedy trial; (2) he is
entitled to a new trial based on newly discovered evidence; and (3) his trial
counsel was ineffective. We reject these arguments and affirm the judgment and
order.
Background

112

Brooks and his co-defendant, Maurice Stokes, were charged with

shooting and killing Terry Baker. They were tried separately. At Brooks’ trial,
Julius Turner described incidents that occurred the night before the shooting and
on the day of the shooting. He said the night before the shooting, as he was
walking back from a gas station, Brooks, Stokes and another man approached him
looking for Baker. Brooks told Turner he had better stop hanging around Baker
because Baker was a dead man. Brooks then showed Turner a handgun.
13

The next morning, Baker left Turner’s house on his bicycle. Turner

got in his car and traveled in the same direction. Turner then heard three or four
gunshots and saw a green vehicle parked in an alley that he recognized as usually
being occupied by Brooks and Stokes. He said he saw both Brooks and Stokes
aim their guns at Baker, and Brooks fired at Baker as Baker was jumping a fence.
14

Michael Henderson’s preliminary hearing testimony was read to the

jury. He was at a different location than Turner at the time of the shooting, about
two houses away. He testified he saw Stokes with a gun, chasing Baker, and saw

motion.

Judge Sankovitz presided over the trial. Judge Wagner decided die postconviction

2

\0V

App. F/l.
Case l:17-cv-01718-WCG Filed 02/28/18 Page 20 of 85 Document 10-6

No. 2013AP2260-CR

Stokes fire toward Baker. He did not see anyone else chasing or shooting at
Baker.
Discussion
Speedy Trial

15

Brooks’ argument regarding his speedy trial right conflates his

constitutional right with his statutory right. He attempts to apply the remedy for a
constitutional violation to the time limits set forth in Wis. STAT. §971.10(4)
(2011-12). We reject that approach. The remedy for violation of the statutory
speedy trial right is discharge from custody prior to trial, not dismissal of die case.
Day v. State, 60 Wis. 2d 742,744,211 N.W.2d 466 (1973).

16

Brooks’ constitutional right to a speedy trial was not violated. The

threshold factor is the length of the delay from charging to trial. Norwood v.
State, 74 Wis. 2d 343, 353, 246 N.W.2d 801 (1976). The length of delay must be
deemed “presumptively prejudicial” before it is necessary to inquire into any other
factors. Id. Courts have generally found a delay that approaches one year to be
presumptively prejudicial, Doggett v. United States, 505 U.S. 647, 652, n.l
(1992). Here, die trial began less than seven months after the complaint was filed.
A delay of seven months is not presumptively prejudicial. Beckett v. State, 37
Wis. 2d 345,350,243 N.W.2d 472 (1976).
Newly Discovered Evidence

17

Whether to grant a new trial based on newly discovered evidence is

committed to the circuit court’s discretion. State v. Brunton, 203 Wis. 2d 195,
201-02, 552 N.W.2d 452 (Ct. App. 1996). Motions for a new trial based on newly
discovered evidence are entertained with great caution. State v. Terrance J. W.,
3

-

tv

\0'b

App. F/2.
Case l:17-cv-01718-WCG Filed 02/28/18 Page 21 of 85 Document 10-6

No. 20I3AP2260-CR

202 Wis. 2d 496,500,550 N.W.2d 445 (Ct. App. 1996). This court will affirm the
circuit court’s exercise of discretion as long as it has a reasonable basis and was
made in accordance with accepted legal standards and facts of record. State v.
Jenkins, 168 Wis. 2d 175,186,483 N.W.2d 262 (Ct. App. 1992). A request for a
new trial based on newly discovered evidence must be supported by proof that(1) the evidence was discovered after the conviction; (2) the defendant was not
negligent is seeking the evidence; (3) the evidence is material to an issue in the
case; (4) the evidence is not cumulative; and (5) it is reasonably probable that a
new trial will reach a new result. State v. Easter, 148 Wis. 2d 789, 801, 436
N.W.2d 891 (Ct. App. 1989).

18

Brooks’ claim of newly discovered evidence is based on two

affidavits. First, Brandon Brumfeld averred that he was with Turner when Turner
was walking back from the gas station. Three African-American men approached
them and told them Baker was going to get what he had coming to him. Brumfeld
knew Brooks and Stokes, and he stated they were not with the group that
threatened Baker. A short time later, Brumfeld saw one of the men who was
looking for Baker and soon after heard shots about one-half block away.
Brumfeld also averred that the Baker family wanted him to say he saw Brooks and
Stokes at the scene, and offered him money.

1f9

The circuit court properly concluded that Brumfeld’s affidavit did

not meet the test for newly discovered evidence. It is not reasonably probable that
his testimony would result in a different verdict. Brumfeld does not claim to have
witnessed the shooting. His testimony that other men were looking for Baker
shortly before the shooting does not contradict Turner’s testimony that he saw
Brooks shoot at Baker or that Brooks was looking for Baker and threatened him

4

\o^

App. F/3.

Case l:17-cv-01718-WCG Filed 02/28/18 Page 22 of 85 Document 10-6

No. 2013AP2260-CR

the night before the shooting. At best, Brumfeld’s testimony would suggest a
larger number of parties to the crime, but would not exonerate Brooks.
^10

Brooks’ second affidavit in support of his claim of newly discovered

evidence came from Shawnrell Simmons who was in the Milwaukee County Jail
with Turner. He averred that Turner told him he did not want to testify because he
“didn’t even see his friend being murdered,” but that he accepted cash from
someone to testify against two men. Turner allegedly told Simmons he took the
money and went back to Texas.
^[11

The circuit court properly rejected Simmons’ affidavit It was based

on hearsay and was not supported by any corroborating evidence. See Nicholas v.
State, 49 Wis. 2d 683, 694, 183 N.W.2d 11 (1971).

Evidence that merely

impeaches the credibility of a witness without corroborating evidence does not
warrant a new trial on the ground of newly discovered evidence. Greer v. State,
40 Wis. 2d 72,78,161 N.W.2d 255 (1968).
Ineffective Assistance of Counsel
T112

Brooks contends his trial counsel was ineffective for failing to

subpoena Michael Henderson. Henderson was on the State’s witness list and
Brooks’ trial counsel believed he could rely on the State’s subpoena to produce
Henderson for trial. Henderson’s preliminary hearing testimony was read to the
jury. Henderson testified at Stokes’ trial, contradicting his testimony at Brooks’
preliminary hearing. At Stokes’ trial, Henderson said he saw another person with
“Reece,” referring to Maurice Stokes. The other person was caramel-skinned with
braids. Baker approached these two men on his bicycle, but then jumped off the
bicycle and ran between the houses, out of Henderson’s sight. Henderson then
heard gunshots, but did not see who was shooting.

Brooks claims he was

5

f>

\o5

App. } F/4,

Case l:17-cv-01718-WCG Filed 02/28/18 Page 23 of 85 Document 10-6

No. 20I3AP2260-CR

prejudiced by his counsel’s failure to have Henderson testify about the caramel­
skinned person involved in the shooting.
1fl3

To establish ineffective assistance of counsel, Brooks must establish

prejudice to his defense. See Strickland v. Washington, 466 U.S. 668, 687
(1984).

He must show a reasonable probability that, but for counsel’s

unprofessional errors, the result of the trial would have been different. Id. at 694.
A reasonable probability is one that undermines our confidence in the outcome.
Id. The circuit court correctly concluded counsel’s failure to subpoena Henderson
did not prejudice Brooks’ defense.

The jury heard Henderson’s preliminary

hearing testimony in which he denied the existence of a second shooter. That
evidence was more favorable to Brooks than Henderson’s testimony at Stokes’
trial. Henderson’s testimony at Stokes’ trial regarding the caramel-skinned man
with braided hair whose face was partially obscured would not have excluded
Brooks as the second shooter. Because Brooks’ motion provided no basis for
believing that, had his counsel subpoenaed Henderson, the result of the trial would
have been different, the court properly rejected Brooks’ claim of ineffective
assistance of trial counsel.
By the Court.—Judgment and order affirmed.
This opinion will not be published.

See WlS. Stat. RULE

809.23(l)(b)5. (2011-12).

\OVp

6

App. F/5.
Case l:17-cv-01718-WCG Filed 02/28/18 Page 24 of 85 Document 10-6

1

__ 1,

Office of the Clerk

£$vcptzm£ (Emtri xif pfecmtsm
110 East Main Street, Suite 215
P.O.Box 1688
Madison, WI 53701-1688
TELEPHONE (608) 266-1880
Facsimile (608) 267-0640
WebSite: www.wicourts.gov

February 10, 2015
To:
Hon. Richard J. Sankovitz
Milwaukee County Circuit Court Judge
821 W. State St.
Milwaukee, WI 53233

Sara Lynn Larson
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857

Hon. Jeffrey A. Wagner
Milwaukee County Circuit Court Judge
901 N. 9th St.
Milwaukee, WI 53233

Karen A. Loebel
Asst. District Attorney
821 W. State St.
Milwaukee, WI 53233

John Barrett
Milwaukee County Clerk of Circuit Court
821 W. State Street, Room 1114
Milwaukee, WI 53233

Sara Heinemann Roemaat
P.O. Box 280
Rewaukee, WI 53072

You are hereby notified that the Court has entered the following order:

No. 2013AP2260-CR

State v. Brooks L.C.#2011CF1651

A petition for review pursuant to Wis. Stat. § 808.10 having been filed on behalf of
defendant-appellant-petitioner, Cyrus Linton Brooks, and considered by this court;
IT IS ORDERED that the petition for review is denied, without costs.

Diane M. Fremgen
Clerk of Supreme Court

Appendix - G.

Attachment

Mr. Cyrus Brooks #356756-A.
Columbia Correctional Institution
Post Office Box 900 / CCI-Unit-#9.
Wisconsin., 53901-0900
Portage;
§ Although The Constitution Does Not Ensure
That Every Defendant Receives The Benefit
Of Superior Advocacy--How Could It, Given
That Half Of All Lawyers Are Below Average?-It Does Entitle Every Defendant To The
Benefits Of An Advocate: Castellanos v. United
States, 26 F.3d 717, 719 (7th Cir. 1994)... §
July 02, 2013.
Atty-Ms. Sara Roemaat,
Attorney At Law;
D'Angelo & Jones, LLP.
N14W23775 Stone Ridge Drive
Stone Ridge I -- Suite #200
Waukesha; Wisconsin. 53188
Re:

State Of Wisconsin v. Cyrus L. Brooks,
Milwaukee County Case 20ll-CF-l651.

Dear Attorney Roemaat:
Defendant, respectfully submits this instant legal address
before your Appellate/Post-Conviction Counsel review undertaking
In the above-entitled CrimliBtl case 1st Appeal Of Right litigation.
In Defendants follow-up to the recent Telephone calls discussions
that have taken place between us, as well the points made in your
letters dated June 17, 2013 and June 10, 2013.. As we have dis­
cussed, it is currently the Appellate Review objective, to have
the necessary Section §974.02 Wis. Stats., Post-Conviction Motion
Pleading along with the necessary Support pleadings, ready to be
filed by the end of this month, before the Milwaukee County Circuit
Courts, Clerk Of Courts Office... And thus, this discussion is in
concern to matters I would like to ensure are meaningfully given
the Professional consideration, that relevant case law acknowledges
Appellate Counsel at the State level, should be concerned with.
Initially, in your June 10, 2013 dated letter, you make it a
point to assert: "I am not going to hire an investigator in this
case because the public defender's office is not going to re-interview everybody who has already been interviewed by the police." And
it is this "Mind Set" demonstration, that causes me to pause; in
light of the Constitutional Duties a Professional Attorney owe to a
Client/Defendant in circumstances such as those that exist in my Case
Prosecution and Trial Counsels defense there against execution(s)..
This was an Inner-City Citezen's witnessed case situation, and any
competent attorney would be well aware of the relevant fact; that
African-American's in "General" Do Not interact with Police, and
particularly, white Police Officers* openly and/or honestly.. Most
Inner-City Blacks* do not view Police as our Friend(s) and/or Pro-

1.

App. G/l.

[ Att-'
tectors. They are viewed as our Enemies, and Oppressor( s) . And thus,
for you to assert, that reliance on Policr Contacts/Report(s) there­
of; instead of undertaking Defense Investigation/Contacts of Witnesses
Trial Counsel failed to Interview. To me, is simply a continuation of
Trial Counsel's "Information Defective" decision making execution(s)
of my Defense presentation: Strickland v. Washington, 466 U.S. 668,
104 S.Ct. 2052, 2066 (1984)("Counsel has a duty to make reasonable
investigations or to make a reasonable decision that makes a parti­
cular investigation unnecessary"); United States v. Williamson, 183
F.3d 458, 462 (5th Cir. 1999)("In review of a claim of Ineffective
Assistance of Counsel, Court of Appeals Judges counsel's appellate
performance under the same two-prong test of Strickland v. Washington."
77“; "Reasonable attorney, for purposes of claim of ineffective assist­
ance of appellate counsel, has an obligation to research relevant facts
and law, or make an informed decision that certain avenues will not
prove fruitful").
In the execution of this minimum duty owed a client, the United
States Supreme Court has noted: "Inquiry into counsel's conversations
with defendant may be critical to proper assessment of counsel's in­
vestigation decisions, just as it may be critical to a proper assess­
ment of counsel's other litigation decisions;" Strickland v. Washing­
ton, supra, 104 S.Ct. at 2066. Thus, at the Post-Conviction/Appellate
level of such Issue(s) as those we have discussed presenting in ray
1st Appeal of Right litigation, the relevant case law precedent is
clear on what our burden mandates: Hardamon v. United States, 319
F.3d 943 (7th Cir. 2003)("A petitioner alleging ineffective assistance
as a result of counsel's failure to adequately investigate the casle
has the burden of providing the court with sufficiently precise in*4
formation as to what the investigation would have produced"). I.e.,
State v. Leighton, 2000 WI App.
, Appeal No. 99-2704 (Wis. App.,
Dist-#1; 07-27-2000)("To show ineffective assistance of counsel for
failure to investigate, Defendant must prove what evidence should
have been discovered"). This "burden" can't be fulfilled via total
reliance on contact information written in Police Report(s), and even
more so, when that contact involves African-American "Inner-City"
Witnesses; Jones v. Jones, 988 F.Supp. 1000, 1002-1003 (E.D. La. 1997)
("Ineffectiveness of counsel is clear if attorney fails to investigate
plausible line of defense or interview available witnesses; these can
hardly be considered strategic choices since counsel by his failure
has not obtained facts upon which such tactical decisions could rea­
sonably be made"); Hall v. Washington, 106 F.3d 742, 749 (7th Cir.
1997)("To be upheld as reasonable, counsel's decision not to call a
particular witness must be made "only after some inquiry or investiga­
tion by defense counsel"; the "attorney must look into readily avail­
able sources of evidence""). To date, that really hasn't happen in my
case defense preparation by Trial Counsel, nor at the Appellate Review
"Issue(s)" development stage, within the mandated, minimum of Federal
Constitution Effective Assistance.receipt undertakings; Montgomery v.
Petersen, 846 F.2d 407, 412 (7th Cir. 1988)("Nonstrategic decision not
to investigate is inadequate performance"). All i'm hearing, is lets
rely on the Police Contact/Reports; which are well documented unrelia­
ble records for "Defense" Investigation decisions undertakings regard­
ing witnesses "Exculpatory" value to the Defendant's defense: Jones v.
v. Jones, supra, 988 F.Supp. at 1002 ("To provide effective assistance
App. G/2.
2.

[Att' ' »<

defense counsel must engage in reasonable amount of pretrial investiga­
tion and at minimum interview potential witnesses and make independent
investigation of facts and circumstances of the case. Strickland v.
Washington, 466 U.S. 668, 690-691, 104 S.Ct. 2052, 2065-66, 80 L.Ed.2d

6T4 (M)").

Secondly here, is the conversation we have been having lately,
regarding the Case Law consideration(s), and my belief that my State
Appellate Review Filing(s), need to clearly set forth the Federal
Law "Due Process" underpinning(s) of my Clairo(s); especially, the
Evidentiary Issue(s), that are raised in a few of my Claira(s) that
are to be included in the upcoming §974.02 Post-Conviction Motion
pleading. The law regarding Federal §2254 Petition For Writs of Habeas
Corpus "Issues" exhaustion at the State Court(s) Level is getting to
be more restrictive every year lately, and it is not ray intent to al­
low myself to allow for the closing of meaningful eventual §2254 re­
view of ray Conviction and Sentence situation(s), if my 1st Appeal of
Right review, fails to achieve the redress I desire. Indeed, it is
clearly acknowledged in law, that; "’Fair* presentment requires the
petitioner to give the state courts a meaningful opportunity to pass
upon the substance of the claims later presented in federal court:"
Anderson v. Benik, 471 F.3d 811, 814 (7th Cir. 2006)(citing Rodriguez
V- Scillia, 193 F.3d 913, 916 (7th Cir. 1999). Thus, "In the interests
ot federal-state comity, both the operative facts and controlling law
must be put before the state courts;" Id. 471 F.3d at 814.
See also Reese v. Baldwin, 282 F.3d 1184, 1192-1193 (9th Cir.
2002)("Citation to federal authority for one claim in a postconviction
petition is not transferred to all the other claims contained in the
petition, for purposes of determining whether state court remedies
were exhausted in a manner sufficient to permit federal habeas corpus
review; rather, to fairly present a federal habeas claim to a state
court, it is essential that the petitioner must in some way provide
a reference to federal authority to support that particular claim").
I.e., Riggins v. McGinnis, 50 F.3d 492, 494 (7th Cir. 1995)("Riggins i
brief not only omits a citation to any case decided by a federal court
but also expresses his argument in the terms of Reddick itself: that
the pattern jury instructions misstate the law of Illinois. Arguments
based on state law are some distance from arguments based on the Con­
stitution. ... ’A lawyer need not develop a constitutional argument at
length, but he must make one; the words "due process" are not an argu­
ment1"). Thus, your assertion contained in the June 17, 2013 letter,'
that cases from the Federal system are not binding in Wisconsin Courts
while technically correct; is yet a misrepresentation of my interest
I am seeking to employ them for: Rudolph v. Parke, 856 F.2d 73'8, 739
(6th Cir. 1988)("It is settled law in this circuit that a constitutional
claim which is presented to the state courts, regardless of whether they
address and dispose of it, will satisfy the exhaustion requirement");
Wallace v. Duckworth, 778 F.2d 1215, 1223 (7th Cir. 1985)("For purposes
of requirement that state prisoner exhaust state remedies before he can
petition for writ of habeas corpus in federal court it is not necessary
that state court explicitly rule on the issue raised, but only that
state court be given the opportunity"^).
3.

App. G/3.

[Att-

_ • • • a

In conclusion of this 2nd Issue address, I also want to point
out, that any Case(s) other than Wisconsin Court case(s), that I
have requested that you review, particularly regarding "Evidentiary'*
Issue(s), I believe are capable of being argued as "Persuasive" aut­
horities, under State of Wisconsin, case law precedent holdings, such
as: State v. Evans, 238 Wis.2d 411, 415, 617 N.W.2d 220, 222 n.2 (Wis.
App. 2000)("Where a State rule mirrors the federal rule, we consider
federal cases interpreting the rule to be persuasive authority. See
State v. Cardenas-Hernandez, 219 Wis.2d 516, 528, 579 N.W.2d 678
("1998)”); and State v. Seay, 250 Wis.2d 761, 767, 641 N.W.2d 437,
439 n.4 (Wis. App. 2002)(nAll of the federal rules under considers™
tion in Becker have substantially similar counterparts in Wisconsin.
Thereforewe conclude that the Supreme Court's analysis in Becker is
persuasive"). As you know, Wisconsin's Rules Of Evidence, were almost
verbatim adopted from the Federal Rules Of Evidence; and therefore,
Federal case(s) addressing "Constitutional" violation(s) regarding’
these similar Rules Of Evidence exercises by the Court(s) at the
Federal Level can be argued as "Persuasive" authorities in support
of such Evidentiary Issue(s) of prosecution creation in my case
situation; Brown v. 0*Dea, 187 F.3d 572, 578 (6th Cir. 1999)("The
standard in determining whether the admission of prejudice—evidence
constitutes a denial of fundamental fairness is whether the evidence
is 'material in the sense of a crucial, critical highly sugnificant
factor’"). I.e., Alvarez v. O’Sullivan, 58 F.Supp.2d 882, 886 (N.D.
Ill. 1999)("Our task is not to 'second-guess' the correctness of the
trial court's rulings based on state evidentiary rules; rather, we
are only to decide if a constitutional right has been violated by
those determinations. Koo v. McBride, 124 F.3d 869, 874-75 (7th Cir.
1997)") .
Hopefully, the discussion contained in these preceding Three
and a half pages, will help put us both on the same page, regarding
the objective(s) and ultimate goal sought via this upcoming State
Post-Conviction/Appellate Review litigation of your Professional
Appellate Counsel guidance. However, I have learned since my recent
incarceration on this Conviction and sentence, that, it is in my
Appellate litigation undertaking, to have short range (State Level)
as well as long range (Federal Level) Relief Obtainment Goals. And
therefore, I am required to insure that all "Facts" I may eventually
need to argue at the later stages of this case Appellate Review are
of the State Court Record inclusion; and were diligently pursued by
us* Cullen v. Pinholster, 131 S.Ct. ___ (2011)(uIf acclaim has been
adjudicated on the merits by a state court, a federal habeas petit­
ioner must overcome the limitation of sec. 2254(d)(1) on the record
that was before that state court"). It is now, almost Impossible to
receive an "Evidentiary Hearing" before the Federal District Courts,
thus, State Defendants' must take full and complete advantage of any
such Evidentiary Development opportunity at the State level, during
their 1st Appeal of Right litigation exercises; as the Wisconsin State
Supreme Court empathized in their June 19, 2011 decision of Balliette
v. State, 336 Wis.2d 358, 805 N.W.2d 334, 337-339 (Wis. 2011). Thus,
as the Seventh Circuit Court of Appeals, made clear in its holding of
Freeman v. Lane, 962 F.2d 1252 (7th Cir. 1992), "Counsel has a duty
to preserve potericially meritorious Issue, that may not be recognized
until the later stages of the appellate review--wether or not--he will
not or need not accompany the defendant on the complete journey." See
4.

App. G/4.

[Att-

also United States ex rel. Bernard v. Lane, 819 F.2d 798 (7th Cir.
1987), for a similar position assertion of the Seventh Circuit
Court of Appeals, regarding this Issue.
This in Conclusion, I simply wish to attempt to get us both
on the same page, regarding the upcoming litigation of roy 1st Appeal
of Right, Wisconsin Appellate Rules, required §974.02 Post-Conviction
execution(s). For with the currant state of Wisconsin Law limitations
and the Federal Law fast re-embracement of the "Hands Off" Doctrine,
the only meaningful opportunity I will have to create the underlying
"Facts and/or Evidentiary" foundation for my Claim(s) and Issue(s)
to be built upon, is with this §974.02 Wis. Stats., Post-Conviction
litigation, Evidentiary Hearing opportunity; and I do plan to take
full and meaningful opportunity of this procedural venue to do just
that. Please review; Trevino v. Thaler, 133 S.Ct. 1911, 2013 U.S.
LEXIS 3980 (2013, 05-28)["Headnote #6, in Particular"].
Addf£ionally here, I also have been informed that the "Other"
Legal Papers were recently dropped off at your Law Office bv my Family,
regarding the discussed "Issues" that I believe may be relevant. And
thereon,'I will look forward to out next telephone" conversation, and
hearing your perspective thereon; State v. Redraond, 203 Wis.2d 13.
552 N.W.2d 115, 118 (Wis. App. 1996)("Supreme Court Rule 20:1.2 requires that n[a] lawyer shall abide by a client's decisions concerning the objectives of representation ... and shall consult with the
client as to the means by which they are to be pursued." While an
attorney is not required to raise every nonfrivolous issue suggested
by a client, Jones v. Barnes, 463 U.S. 745, 754, 103 S.Ct. 3308, ojj.
77 L.Ed.2d 987 (1983T, implicit in the Rules of Professional Conduct
is a requirement to involve a client in any matter relating to his ot­
her representation. By engaging the clients, an attorney'may forestall
a client's perceived need to pursue "overlooked" issues through pro
se presentation").
Thank You, Attorney Roemaat for your time and attention hereto.
CB-OBM/File.

Respectfully Submitted By:
Cyrus Brooks
£356156-A
[Defendant-Appellant].

5.

App. G/5.

iSSSJI
r. -

is^jfii

(Attachment
Office of the Clerk

WISCONSIN COURT OF APPEALS
110 East Main Street, Suite 215
P.O.Box 1688
Madison, Wisconsin 53701-1688
Telephone (608) 266-1880
TTY: (800) 947-3529
. Facsimile (608) 267-0640
Web Site: www.wicourts.gov

DISTRICT LTV
August 3,2017

To:
Hon. Jonathan D. Watts'
Circuit Court Judge
Br. 15
821 W State St
Milwaukee, WI 53233

Karen A. Loebel
Asst. District Attorney
821 W. State St.
Milwaukee, WI 53233
Christine A. Remington
Assistant Attorney General
P.O.Box 7857
Madison, WI 53707-7857

John Barrett
Clerk of Circuit Court
Room 114.
821 W. State Street
Milwaukee, WI 53233

Cyrus Linton Bropks 356756-A
Fox Lake Coir. Inst.
P.O. Box 200
Fox Lake, WI 53933-0200

You are hereby notified that the Court h
2016AP974

as entered the following opinion and order:

State of Wisconsin v. Cyrus Linton Brooks (L.C. #2011CF1651)

Before Lundsten, P.J., Sherman and Blanchard, JJ.
Summary disposition orders may not be cited in

any court of this state as precedent or
authority, except for the limited purposes specified in WlS. STAT. Rule 809.23(3).
CyrusFBrooks, pro se, appeals

an order that denied Brooks' postconviction motion under

Wis. Stat. § 974.06 (2015-16).1 Brooks contends that his trial counsel was ineffectiv
to: (1) object to testimony by a medical examiner

e by failing

as to the victim's cause of death on the ground

*
I

H-

S,

l

t0 the Wisconsin Statutes are to the 2015-16 versio

4

n unless otherwise noted.
endix - K.

tip.

r&\JC0

A/a ^ \y

(

i

I

till

i

, , (Att
No, 2016AP974

that the testimony

. ;V

violated Brooks' confrontation rights because a different medical examiner

(2) investigate footprint evidence obtained front the
had performed the autopsy of the victim;
scene; and (3)-pteservi;Brooks' claim that the State, presented
....
......
hood of a car at the crime
Brooks contends that his
knowingly false information at Brooks’ preliminary hearing.
ineffective by failing to raise those arguments in Brooks’ direct
postconviction counsel was
postconviction motion. Based upon our review of the briefs and record, we conclude at
conference that this case is appropriate for summary disposition. See Wis. Stat. Rule 809.21.
We summarily affirm.
In March 2011,

the State charged Brooks with first-degree reckless homicide as a party to

October 2005. Brooks was convicted
the crime for the shooting death of Terry Baker in
Ma^i^«a^-..B»oks.b^mmseh filed a postconviction motion arguing that:
(1) Brooks was denied ins constitutional speedy trial rights; (2) Brooks was entitled to a new trial
based on newly ^scovered evidence, in the form of affidavits of individuals- claiming knowledge
of the shooting and indicating that others Were involved and that a State's witness had been paid
to implicate Brooks; and (3) Brooks’ trial counsel was ineffective by failing to subpoena Michael
, following Henderson’s testimony at the preliminary hearing that
Henderson to testify at trial
Henderson witnessed only Brooks' codefendant Maurice Stokes a, the scene of the shooting.
The circuit court denied the motion, and we affirmed on appeal.
motion for postconviction
In April 2016, Brooks initiated this action by filing a pro se
relief under Wis. Stat. § 974.06

The circuit court denied the motion without a hearing.

fficient material facts that, if true, would
If a Wis. Stat. § 974.06 motion sets forth su
I

entitle the

#0

defendant to relief, the defendant is entitled to a hearing on the motion. State y.
2

App. K/l.

:

(Att

<
/■A

No. 2016AP974

—------ 7'

Battiette, 2011 WI 79,^18, 336 Wis, 2d 358, 805 N.W.2d 334. We independently review
whether a defendant is entitled to a hearing on a, § 974.06 motion. Id. “[I]f the motion does not
raise such facts, ‘or presents only conclusory allegations, or if the record conclusively
demonstrates that the defendant is not entitled to relief,’ the grant or denial of the motion is a
matter of discretion entrusted to the Circuit court.” Id. (quoted source omitted).
When, as here, a Wis. Stat. § 974.06 motion follows a prior postconviction motion, a
•

A •

defendant must show a “sufficient reason” for failing to previously raises the issues in the current
motion.

State v. Escalona-Naranjo, 185 Wis. 2d 168, 184-85, 517 N.W.2d 157 (1994).

Ineffective assistance of postconviction counsel may, in some circumstances, be a “sufficient
reason” as to why an issue was not raised earlier. State ex rel Bothering v. McCaughtry, 205
Wis. 2d 675, 682, 556 N.W.2d 136 (Ct. App. 1996). To demonstrate ineffective assistance of
postconviction counsel, a defendant must show that the issues the defendant believes that counsel
should have raised were clearly stronger than the claims counsel pursued in a postconviction
motion, “by alleging ‘sufficient material facts—e.g., who, what, where, When, why, arid how—
that, if true, would entitle him to the relief he seeks.’” State v. Romero-Georgana, 2014 WI 83,
.^[58, 360 Wis. 2d 522, 849 N.W.2d 668 (quoted source omitted). Whether a § 974.06 motion
alleges a sufficient reason for failing to raise an issue earlier is a question of law that we review
independently. State v. Kletzien, 2011 WI App 22, ^[16, 331 Wis, 2d 640, 794 N.W.2d 920.
;

A claim of ineffective assistance of counsel must establish that counsel’s performance
was deficient and that the defendant was prejudiced by that deficient performance. Strickland v.
Washington, 466 U.S. 668, 687 (1984). To establish deficient performance, a defendant must
identify specific acts or omissions of counsel that “were outside the wide range of professionally
competent assistance.” Id. at 690. To establish prejudice, a defendant must show that there is “a

A

3

<7

j

(Att
No. 2016AP974
y -

reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding ,
would have been, different. A. reasonable probability is a probability sufficient to undermine
confidence in the outcome.” Id, at 694. When a defendant alleges that postconviction counsel
was ineffective by failing to pursue a claim of ineffective assistance of trial counsel, the
defendant must establish that trial counsel was, in fact, ineffective. State v. Ziebart, 2003 WI
App 258, Tfl5, 268 Wis. 2d 468, 673 N.W.2d 369. A claim that trial counsel was ineffective
must set forth the relevant facts as'to the “who, what, where, when, why and how” counsel was
ineffective, State v. Allen, 2004 WI 106, ^[36, 274 Wis. 2d-568, 68£N;W.2d 433. Moreover, “a
defendant who alleges in a [Wis. Stat.] § 974.06 motion that his postconviction counsel was
ineffective for failing to bring certain viable claims must demonstrate that the claims he wishes
to bring are. clearly stronger than the claims postconviction counsel actually brought:” RomeroGeorgana,-360^^26. 522t^47Brooks contends that he need not demonstrate that his current issues are “clearly
'

Y

-

i

"

stronger” than the issues his postconviction counsel pursued in order to demonstrate that his
postconviction counsel was ineffective. He argues that the “clearly stronger” test is not the only
means of establishing ineffective assistance of counsel. In support, Brooks cites federal case law
setting forth the standard for overcoming the procedural bar to obtain review in a federal habeas
corpus action. See, e.g., Freeman v. Lane, 962 F.2d 1252 (7th Cir. 1992) (petitioner not barred
from raising claims in federal habeas corpus action despite failing to raise claims in earlier state
appeal; petitioner’s direct appeal counsel was ineffective by failing to raise issue in direct state
appeal that warranted relief in federal court). We are not persuaded. Our supreme court stated in
Romero-Georgana that the “clearly stronger” standard applies to claims of ineffective assistance
of pOstconviction counsel following a direct postconviction motion. See Romero-Georgana, 36.0
4

App. K/3.

(Att
No. 2016AP974

Wis. 2d 522, ^[46 (“The ‘clearly stronger’ standard is appropriate When postconviction counsel
raised other issues before the circuit court, thereby making it possible to. compare the arguments
■ now proposed against the arguments previously made.”). Nothing in the federal cases that
Brooks cites provides a different standard for a Wis. Stat, § 974.06 motion following an earlier
direct postconviction motion. Thus, at theoutset, Brooks has failed to overcome the Escalona- ■
Naranjo procedural bar 'because he has not attempted to demonstrate that the issues he raises
now are “clearly stronger” than the issues his postconviction counsel pursued on his behalf. See
Roiherd-Georgdria, 36$ Wis. 2‘d'522, ^[46.

;v •

Moreover, Brooks has not set forth sufficient material facts that, if time, would entitle him
to relief. Brooks contends first that his. trial counsel should have objected to testimony by the
medical examiner called by the State to testify as to the cause of Baker’s death. Brooks asserts
that he was denied his constitutional right of confrontation because the medical examiner who
testified to Baker’s cause of death was not the medical examiner who performed Baker’s
autopsy. Brooks contends that, before the results of the autopsy could be used against him, he
had a constitutional right to confront the medical examiner who performed the autopsy. See
State v. Manuel, 2005 WI 75, f>6, 281 Wis. 2d 554, 697 N.W.2d 811 (“‘The Confrontation
Clauses of the United States and Wisconsin Constitutions guarantee criminal defendants the right
to confront the witnesses against them.”’ (quoted source omitted)). Brooks asserts that the
testifying medical examiner merely acted as a conduit for the opinion of the examiner who
performed the autopsy mid thus Violated Brooks’ confrontation rights. 6’ee BullcOmingvTNew
Mexico, 564 U.S. 647 (2011) (crime lab report admitted through the testimony of an analyst,
who played no part in the underlying lab analysis and had no independent opinion about analysis,
presented confrontation problem); Melendez-Diaz v. Massachusetts, 557 U.S. 305 (2009)
5

.

App

( AttNo. 2016XP974

' (admission of test results through notarized “certificates of analysis” rather than the performing
analyst’s testimony violated.the Confrontation Clause). Brooks, contends that the. State did not
prove that the medical examiner who performed file autopsy was “unavailable,” and thus, the
testimony by a different medical examiner was impermissible. See Manuel, 281 Wis. 2d 554,
ffi[23, 36 (“‘[W]here testimonial hearsay evidence is at issue, the Sixth Amendment demands
what the common law required:

(1) unavailability and (2) a prior opportunity for cross-

examination.’” (quoted source omitted; internal quotation marks omitted)). We do not agree
with Brooks that his confrontation rights were violated,

.

,

.

.....

In State v. Williams, 2002 WI 58, 253 Wis. 2d 99, 644 N.W.2d 919, our supreme court
held “that the presence and availability for cross-examination of a highly qualified witness, who
is,familiar with the procedures at hand, supervises or reviews the work of the testing analyst, and
renders her own expert opinion,” satisfies a defendant’s confrontation rights, “despite the fact
that the expert was not the person who performed the mechanics of the original tests.” Id., T[20.
In State v. Gfiep, 2015 WI 40, W, 47-57, 361 Wis. 2d 657, 863 N.W.2d 567, the court
reiterated that an expert’s testimony as to the expert’s independent opinion based on a review of
the results of tests performed by another analyst does not violate a defendant’s confrontation
rights.2 See id., ^[47 (“[E]xpert testimony based in part on tests conducted by a non-testifying
analyst satisfies a defendant’s right of confrontation if the expert witness: (1) reviewed the
analyst’s tests, and (2) formed; an independent opinion to which he testified at-trial.”). Here, the
testifying medical examiner explained that she was a forensic pathologist for the Milwaukee
2-

To the extent that Brooks contends that State v. Griep, 2015 WI 40, 361 Wis. 2d 657, 863
N.W.2d 567, was wrongly decided, we note that only the supreme court may overrule or modify supreme
court opinions. See Cook v. Cook, 208 Wis. 2d 166,189-90, 560 N.W.2d 246 (1997).

6
?

App. K-/5.

(Att.

< '^

.

No. 2016AP974

County Medical Examiner’s Office and had performed about 1,300. autopsies. She testified that
she reviewed Baker’s file, including the autopsy report and photographs, and had reached an
independent opinion concerning Baker’s cause of death. She testified that it was her opinion, to
a reasonable degree of medical certainty, that Baker’s Cause of death was gunshot wounds to his
chest. Also, while Brooks contends that the medical examiner who performed the autopsy was
not “unavailable,” the testifying examiner testified that the examiner who performed the autopsy
had retired. Brooks has not shown that more was required. Thus, Brooks has not established
that he was denied his right to confrontation.

•t' ‘

.. *

Next, Brooks contends that his trial counsel was ineffective by failing to investigate
footprint evidence obtained from die hood of a car at the crime scene. He contends that, had his
Counsel obtained that evidence, it would have shown that the footprints were not his. See State v.
Thiel, 2003 WI 111, ^[44, 264 Wis. 2d 571, 665 N.W.2d 305 (counsel’s performance is deficient
if failure to investigate was unreasonable). However, as the State points put, the evidence at trial
was that there were two men with guns, Brooks and Stokes, chasing Baker before he was killed.
Thus, evidence that the footprints did not belong to Brooks would not have been exculpatory.
Finally, Brooks contends that his trial counsel was ineffective by failing to preserve
Brooks’ claim that the State presented knowingly false information at Brooks’ preliminary
hearing. See State v. Webb, 160 Wis. 2d 622, 628, 467 N.W.2d 108 (1991) (a defendant
claiming error at a preliminary hearing can only obtain relief before trial; a fair and errorless trial
essentially cures any defect in the preliminary hearing).

Brooks asserts that the State

“purchased” the testimony of a witness at the preliminary hearing to state that Brooks admitted
his involvement in the shooting. However, the evidence that Brooks relies upon is a letter from
the assistant district attorney to an administrative law judge (ALJ) stating that the witness had
7

/6.

(Att

' • •*>....... .: ;•

No. 2016AP974 *

\

.

cooperated with the State by testifying truthfully at the preliminary hearing, and that the State
had promised only to make the ALJ aware of the witness’s cooperation. Nothing in the letter
indicates that the State presented knowingly false information at the preliminary hearing.
...v-----

Because Brooks has not demonstrated that the claims in his WlS. Stat. § 974.06 motion
were clearly stronger than the issues raised in his first postconviction motion, Brooks has not
shown that his postconviction counsel was ineffective. Moreover, the facts set forth in Brooks’
‘.V

motion do not establish that Brooks is entitled to relief. Accordingly, the circuit court properly
denied Brooks’ motion without a hearing.
Therefore,
IT IS ORDERED that the order is summarily affirmed pursuant to Wis. Stat. Rule
809.21.
:

;

IT IS FURTHER ORDERED that this summary disposition order will not be published.
Diane M. Fremgen
Clerk of Court of Appeals

r

*:

;

I

8

App. K-/7.
f•

(■

i

\

(Attachment Office of the Clerk

JSitprjeme (Kmtrl rrf pitscrmsm
110 East Main Street, Suite 215
P.O. Box 1688
Madison, WI 53701-1688
Telephone (608) 266-1880
Facsimile (608) 267-0640
WebSite: www.wicourts.gov

November 13,2017
To:

Hon. Jonathan D. Watts
Circuit Court Judge, Br. 15
821 W. State St.
Milwaukee, WI 53233

Christine A. Remington
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857

John Barrett
Clerk of Circuit Court
821 W. State St., Rm. 114
Milwaukee, WI 53233

Cyrus Linton Brooks 356756-A
Fox Lake Corr. Inst.
P.O. Box 200
Fox Lake, WI 53933-0200

Karen A. Loebel
Asst. District Attorney
821 W. State St.
Milwaukee, WI 53233
You are hereby notified that the Court has entered the following order:

No. 2016AP974

State v. Brooks L.C.#2011CF1651

A petition for review pursuant to Wis. Stat. § 808.10 having been filed on behalf of
defendant-appellant-petitioner, Cyrus Linton Brooks, and considered by this court;
IT IS ORDERED that the petition for review is denied, without costs.

Diane M. Fremgen
Clerk of Supreme Court

Appendix -

M.

Attachment [R.59:Ex-#9].
• ■>''^pS-i5A 3/98 SUPPLEMENTAL
REPORT
MILWAUKEE POLICE-DEPARTMENT INCIDENT
TKlCiDENT-' :
.JNeORlfiATtoia

INCIDENT SUPPLEMENT
ACCIDENT SUPPLEMENT
JUVENILE SUPPLEMENT

.....

iNCIDENT/ACCIDENT #

-10/29/05

05-302-0.135M4372

DATE OF INCIDENT/ACCIDENT

HOMICIDE SHOOTING

10/29/05

VICTIM

LOCATION OF INCIDENT/ACCIDENT

3
DETAINED
ORDERED TO MCCC.
OTHER

DATE OF BIRTH

MIDDLE

FIRST

VALUE

CODE#

SERIAL #

DESCRIPTION

TYPE OF PROPERTY

QUANTITY

DIST. #

2351 N. 46th St.

BAKER, Terry J.
JUVENILE LAST NAME

____________

DATE OF REPORT

This-report-is-dictated by Detective Randolph OLSON, assigned to Squad 123 Day Shift, of
-the-Criminal-Investigation-Bureau,^——......... .......-

...........——-------------—....... .............'—--------

On Saturday, 10/29/05, at approximately 1$;23^. m., I responded to 2351 N. 46th St. regarding
the report of a Homicide shooting. Upon arrival at that location, I met Lieutenant of Detectives Ray
RICHARDS, and Squad 124, Detective Lawrence DEVALKENAERE, who advised me that Terry J.
BAKER, B/M, DOB: 5/27/84, was found dead at the alley fence line for the property located at 2351
N. 46th St. BAKER had suffered a gunshot wound^through and through, fromAside to side)and died at
the scene.

Per Lieutenant RICHARDS, I learned that investigation and evidence indicated that BAKER
had been involved in an argument in the area of 47th & Meinecke.

During the argument, actors

produced guns and numerous gunshots were fired. BAKER fled through the yard eastbound while
being pursued by an unknown person with a possible sawed off rifle. Casings for a 30.30 caliber rifle
were found along the route that BAKER fled.

BAKER was found dead at the fence line and evidence

indicated that numerous gunshots were fired in the area to the point where his body was recovered.
Per

Lieutenant

RICHARDS,

I

was

to

assist

in

the

scene

investigation

devaLkenaere....... '........................................... ..

with

Detective

...... .

While at 2351 N. 46th St., I was advised by Detective John REESMAN that the resident of
2345 N. 46th St. stated that an unknown actor armed with a sawed off rifle fled through the back yard
at that location. ‘The witness stated that the witness heard the sound of gunshots from the immediate
area rear of their residence and then observed an unknown male armed with a sawed-off rifle jump
|over the fence oh the north side of the rear of their property. That unknown male with the rifle then
'ran southbound across the property towards a black Lincoln Town car that was parked in the back
yard close to the residence. Because of the close proximity of the car to the house, the witness was
' unable to see where the person with the rifle ran after that person left the witness’s sight.
_
!n’/n.

4-J* 7
7
Lr1

Appendix - H. if

...

,

. im-Gi

$

Attachment
'■ - HOMICIDE SHOOTING BAKER, Terry J. 05-302-0135/M4372

A check of the rear yard at 2355 N. 46th St. revealed a fenced back yard with a 6’10” high
fence going east to we.st on the south side of the residence and a 5’9” high wooden fence going east
to west on the north side of the back yard for the residence. Parked in the southeast corner of the
back yard approximately 2’-3’ from the southwest corner of the house for 2345 N. 46th St., was a
black Lincoln Town car. This vehicle was a 4 door vehicle, black in color, with Wisconsin ’06 license
plate 700-JEZ.

It had a VIN 1LJBP96F6FY707969. The vehicle was dirty and covered with dust.

Th’e 1985’LincolrTTowri car listed to Kathleen TRAMELL of 2345 N. 46th St.

The 1985 Lincoln Town car was approximately 70” wide X 2T long.

The vehicle was parked

facing eastbound and the doors were unlocked. ! Based on the information supplied by the witness at
;2345 N. 46th St., the suspect jumped over the fence on the north side of the back yard at 2345 N. 46th
. St. and proceeded directly southbound towards the south fence line of the backyard property. The
hood to the 1985 Lincoln Town car was directly in the path of a hole in that fence. An inspection of
the hood of that vehicle showed what appeared to be three sets of footprints crossing the hood of the
car. The hood of the car is approximately 3’ high and the first print starts at the left front quarter panel
o"ri the top at the hood. All three prints are prints that resemble a circle with smaller circles inside and
proceed directly south across the hood of the car. The second print is then in the center of the hood,
but close to the windshield and the third print is on the right front quarter panel, right at the edge of
the hood. A measurement of the prints showed that each one of the prints extended from the center
circle out 3” to the outside ring of the print. Photographs of all three prints were taken by l.D. Tech
Michelle HOFFMAN, including to-scale prints with a tape measure beside them.

Directly south of these footprints was an 11” hole in the fence. This fence was 7’ south of the
limousine which was 26’ south of the north fence. The hole in the south fence had two planks that
had been kicked out by the suspect. Those planks were 51/£” wide each and laying on the ground on
the south side of the fence.; It appears based on the path of the suspect, he jumped the fence on the
north side of the property, ran the 26’ to the Lincoln, ran across the hood of the Lincoln, landed on the
ground and then went 7’ to the south fence where he kicked out the planks and then went through the
11” opening continuing southbound into the next yard.

During the course of photographing the prints on the vehicle and checking the area for further
evidence, a cartridge easing for a ,3040 caliber rifle was found approximately 14” west of the right

App. H/l.
*» »*•

:.m . •

\0

(Attachment -

*>
OFFICE OF THE DISTRICT ATTORNEY

si

mn
m

tni

V*

tMiCwaukge County
JOHN T. CHISHOLM * District Attorney

Chief Deputy Kent L. Lovern, Deputies James J. Martin, Patrick J. Kenney, Lovell Johnson, Jr., Jeffrey J. Altenburg

/

June 7, 2011
AT J Margaret Beckwith
Division of Hearing and Appeals,
RE: Doniel Carter 05 CF 6973
Dear Judge Beckwith,
I am writing to let you know about the cooperation provided by Mr. Carter. In 2006, Mr. Carter
debriefed with members of the Milwaukee Police Department Homicide Unit in regards to a
homicide committed by Cyrus Brooks.
Cyrus Brooks was later charged in Milwaukee County Case 11 CF 1651 with First Degree
Reckless Homicide.'On June 1, 2011, this case was set for preliminary hearing for the third time.
Commissioner Dennis Cook indicated that no final adjournments would be given to the State and
that if the State could not proceed on that date, the case would be dismissed. Mr. Carter testified
and testified truthfully as to an admission that Mr. Brooks made to him in custody. Following Mr.
Carter’s testimony, the State was successful in getting bindover.
Mr Carter testified for the State with no promises other than the State would make Your Honor
aware of his cooperation. * At this time, the State is taking no position as to what credit should be
awarded for his cooperation. Further negotiations will continue in regards to hopeful truthful
testimony at trial, if that occurs.
The State is writing this letter to notify Your Honor as to Mr. Carter’s cooperation with the State
that allowed a homicide case to proceed through preliminary hearing. Again, the State is not
at this time, as to revocation or sentence.
. taking any positi

Sincerity,
‘anfHuebner
Assistant District Attorney
821 West State St., Room 405
Milwaukee, WI 53233
T.

Appendix - I.
1468 R136

SAFETY BLDG., RM. 405, 821 W. STATE STREET, MILWAUKEE, WI 53233-1485
PHONE: 414-278-4646 FAX: 414-223-1955

)
William J. Mofltor
Donald S. Jackson
Gate G. Shelton
Gary 0. Mahkom
David Robles
Cynthia G. Brown
Norman A, Gafin
Steven H. Glamm
Mark S. Williams
John M. Stotber
Thomas L Potter
David Feiss
Rayann Chandler Szychtlnskf
Carole Manchester
Kenneth R. Berg
Warren D. Zter
Timothy J. Cotter
Carol Berry Crowley
Steven V. Ucata
Brad Vorpahl
. Paul Tiffin
Miriam S. Falk
Phyllis M. DeCarvalho
Dennis P.-Murphy
Bruce J. landgraf
Denis J. SHngi
-Janet C Protasiewta
DeAnn L Heard
Patrlda A. McGowan
Irene E. Parthum
Karen A. loebel
Ronald S. Dague
Lori S. Komblum
Karine 0 Byrne
Marla Dorsey
James W. Frisch
Kurt 8. Benkley
James C Griffin
William P. Pipp
Joanne L Hardtke
Christopher A. Uegel
Megan P. Carmody
Laura A. Crlvelto
Shawn Pompe
Kevin R. Shomtn
Beth D. Zlrglbel
Karen A. Vespalec
Mark A. Sanders
PaulC Dedinsky
David T. Malone
Kelly L Hedge
Rachael Stencel
Mary M. Sowindd
Kathryn K. Samer
Daniel J. Gabter
Sara P. Scullen
T. Christopher Dee
Jacob D. ConJoy Hammond
Katharine F. Kucharsk)
Elisabeth Mueiler
Grant 1. Huebner
Stephan Eduard Nolten
Michelle Ackerman Havas
Jennifer K. Rhodes
Claire Starling
Zach Whitney.
Rebecca A. Kiefer
Matthew J. Torbenson
Katryna L Childs
Anthony White
Antoni Apollo
Nicole D. Loeb
Erin Karshen
%
Lucy Kronforst
Michael J. LonsW
Paul M. Hauer
Sara Beth Lewis
Aaron E. Hal!
Jennl Spies
David M. Stegall
Amanda Kiridewskl
Benjamin Wesson
Renee Helnltt
Karl P. Haiyes
Holly L Buinch
Jacob A. Manian
Heather M. Placek
Megan M. Williamson
Dewey B. Martin
Sarah Sweeney
Christopher J. ladwlg
Kim berly D. Slkorstd
Nicole J. Sheldon
Dax C. Odom
Maureen A. Atwell
Christopher W. Rawsthome
Rachel E. Sadder
Jennifer L Hanson
Patricia I. Oaughtery
Marissa L Santiago
Meghan C. Undberg
Jon Neulelb
Ann M. Romero
Brian Sammons
Peter M. Tempells
Matthew G. Puthukulam
Jeremiah C Van Hecke
Edward L Wright
Randy Sltzberger
Karyn E. Behling
Kristin Shlmabuku
Douglas R. Martin
Kasey M. Detss
Nicolas J. Heltman
Chad Woznlak
Estee E. Hart.
Kristin M. Schrank
datre E Trfmarco
Francesco G. Mineo
Jane Christopherson
Tyrone M. St Junior
Hanna R. Kolberg
Joshua M. Kathy
JoanO, King
Antonella Schlldgen
Cynthia M. Davts
Kristin Reddlnger
Jesica A. Ballenger

v..-:

(Attachment „

STATE OF WISCONSIN

CIRCUIT COURT
Branch 15

STATE OF WISCONSIN,

MILWAUKEE COUNTY

FILED
CRIMINAL DIVISION
‘i

Plaintiff,

15 APR V8 2016 15

vs.

JOHN BARRETT

__

CLERK OF CIRCUIT COURT

Case No j 1CF001651

CYRUS L. BROOKS,
Defendant.

DECISION AND ORDER
DENYING MOTION FOR POSTCONVICTION RELIEF
On April 8, 2016, the defendant filed a pro se motion for postconviction relief pursuant to
section 974.06, Wis. Stats., and State ex rel. Rothering v. McCaughtry, 205 Wis.2d 675 (Ct. App.
1996). Under Rothering, a defendant may bring a claim under section 974.06, Wis. Stats., before
the trial court alleging that postconviction counsel was ineffective. The Rothering court indicates
that the ineffective assistance of postconviction counsel may be sufficient cause •under State v.
Escalona-Naranjo, 185 Wis.2d 169 (1994), for failing to raise an issue previously. Both sec.
974.06(4), Wis. Stats., and Escalona require a defendant to raise all issues in his or her original
postconviction motion or appeal. In addition, when arguing that postconviction counsel was
ineffective for failing to raise the ineffectiveness of trial counsel, a defendant must demonstrate that
the- claims- he- wishes -to-bring- are clearly s1ronger-than--the- c-laims- postconvietion- counsel -actually-----brought. State v. Starks, 349 Wis. 2d 274 (2013). '
The defendant Brooks and co-defendant Maurice Stokes were charged with first degree
reckless homicide as parties to a crime in the shooting death of Terry James Baker on October 29,
2005. A jury trial was held before the Hon. Richard J. Sankovitz on October 10-13, 2011, after
Appendix - J.
1

(Att-#2/A)

which the jury found the defendant guilty as charged. On November 18, 2011, Judge Sankovitz
sentenced him to 38 years in prison (30 years of initial confinement and eight years of extended
supervision). Postconviction counsel filed a motion for new trial on August 12, 2013 which was
denied by Judge Sankovitz’s successor, the Hon. Jeffrey A. Wagner. An appeal was filed, and the
Court of Appeals affirmed the postconviction order and judgment of conviction on September 30,
2014.
The defendant now claims that postconviction counsel failed to raise meritorious issues on
appeal which he (the defendant) had specifically instructed counsel to raise. {Motion, p. 12). First,
he claims that counsel should have raised the following issues with respect to the ineffective
assistance of trial counsel:
■ Trial counsel should have objected when someone else other than the medical examiner
who performed the autopsy was permitted to testify.
■ Trial counsel should have investigated the footprint evidence left by the shooter because
if he had done a comparison between the footprints found on the hood and fender of an
automobile that the shooter allegedly ran across after the shooting, it would have
exculpated him.
■ Trial counsel failed to appeal his bindover after the preliminary hearing.
None of these claims are clearly stronger than the claims postconviction counsel actually
raised.
Strickland v. Washington, 466 U.S. 668, 694 (1984), sets forth a two-part test for
determining whether an attorney's actions constitute ineffective assistance: deficient performance
and prejudice to the defendant. Under the second prong, the defendant is required to show "'that
there is a reasonable probability, but for counsel's unprofessional errors, the result of the proceeding

2

App. J/lJ

(Att-#2/C)

Afterwards, several United States Supreme Court cases were decided which produced
different scenarios, and cases such as Melendez-Diaz v. Massachusetts, 557 U.S. 305 (2009) and
Bullcoming v. New Mexico, 561 U.S. 1058 (2010), produced a different result (finding that the
defendant’s confrontation rights were violated). Both of these cases involved the introduction of
laboratory reports, which were deemed testimonial.

In Melendez-Diaz, the United States

Supreme Court found that a forensic lab. report could not be offered without a live witness
competent to testify as to the truth of the report’s contents; and in Bullcoming, the same court
held that since the analyst who presented the report did not participate in, observe, or review the
testing of the defendant’s blood sample, the prosecution must produce the analyst(s) who wrote
the report for confrontation purposes. The defendant relies on both Melendez-Diaz and
Bullcoming to support his argument that his right to confrontation of the witness, Dr. Stormo,
was violated.
In State v. Griep, 361 Wis. 2d 657 (2015), the Wisconsin Supreme Court analyzed all of
the above cases, noting that the testimony in Bullcoming was “not the independent opinion of an
expert.”

Griep at 675. It stated, “Therefore, when an expert witness reviews data yielded by

laboratory tests and reaches his or her own independent opinion based on that data and his or her
own knowledge. Williams applies and Bullcoming provides no guidance.” Id. The Griep court
found that “an expert may form an independent opinion based in part on the work of others
without acting as a ‘conduit.’” Id. at 689. That is what occurred in Griep, and that is what
occurred here.
It was undisputed that the victim had been shot. Dr. Wieslawa Tlomak testified that she
had been with the Medical Examiner’s office for five years and had performed approximately
1300 autopsies. (Tr. 10/11/11, p. 67). She stated that Dr. Stormo had retired, that she had

4.

App. J/3.

w

r ...

(Att-#2/D)

reviewed the file, and that she had reached her own independent opinion regarding the cause and
manner of death of the victim. (Id. at 68). Clearly, this is a Williams situation, and the
defendant’s right to confrontation was not violated. Not only was Dr. Tlomak’s testimony based
on her independent opinion, but the defendant does not indicate in his motion how anything in
Dr. Tlomak’s testimony affected his defense. The court questions how confrontation of the
original medical examiner would have assisted in the defendant’s particular defense. He has not
shown what difference it would have made to his case or how his ability to question the original
medical examiner would have altered the outcome. In short, Dr. Tlomak was qualified to present
testimony on the autopsy that Dr. Stormo had performed and to reach an independent opinion
with regard to the findings that were made. The defendant has not set forth a viable claim for
relief with respect to this issue.
The defendant’s footprint evidence argument also fails to pass muster. No evidence of
this nature (an expert’s comparison of footprints) has been presented in support of the defendant’s
claim, although he indicates that police officials have refused to respond to his requests to turn over
the evidence for a forensic comparison. (Motion at p. 18). However, even if he could show that
the footprints did not match his feet, it would not necessarily be exculpatory because there is not
a reasonable probability that the outcome of the trial would have been any different given the
compelling testimony of the witnesses, especially Julius Turner. As indicated in Judge Wagner’s
prior decision, Turner testified that both Brooks and Stokes had approached him and told him to
stop hanging around with the victim because he was a “dead man.” (Decision and order dated
October 4, 2013, p. <5). He also testified that he saw both defendants with guns taking aim at the
victim at the time of the incident. (Id). He said he saw Brooks fire a shot at the victim and he
saw Stokes aiming a gun with his arm extended.

5.

(Tr. 10/11/11, pp. 79-81).

Given the

App. J/4.

-ii-L

(Att—# 2/E)

overwhelming eyewitness testimony against the defendant, the size of the footprints would not
have carried much weight.
Finally, the defendant’s argument that trial counsel should have appealed the bindover on
June 1,2011 is not clearly stronger than the issues raised by postconviction counsel. In sum, the
defendant has not demonstrated that postconviction counsel provided ineffective assistance in his
case.
THEREFORE, IT IS HEREBY ORDERED that the defendant’s motion for
postconviction relief is DENIED.
Dated this

day of April, 2016 at Milwaukee, Wisconsin.
BY THE COURT:
^ o'',
c- .S'

\4\
18 -=
J.D. Watts
= V.v ^
- .*o
Circuit Court Judged
SEAL.
- O:
w•

*

* V.\N

''//IHIO'''

«

6.

Office of the Clerk
i*\Y

WISCONSIN COURT OF APPEALS

6
S5

of

eS

110 East Main Street, Suite 215
P.O.Box 1688
Madison, Wisconsin 53701-1688
Telephone (608) 266-1880
TTY: (800) 947-3529
Facsimile (608) 267-0640
Web Site: www.wicourts.gov

DISTRICT I
July 28, 2016
To:
John Barrett
Clerk of Circuit Court
Room 114
821 W. State Street
Milwaukee, WT 53233

Gregory M. Weber
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857
Cyrps^Linton Brooks 356756-A
jSmumbia Corn Inst.
P.O. Box 900
Portage, WI 53901-0900

Karen A. Loebel
Asst. District Attorney
821 W. State St.
Milwaukee, WI 53233

You are hereby notified that the Court has entered the following order:
2016AP974

State v. Cyrus Linton Brooks (L.C. # 2011CF1651)

Before Curley, P.J.

Cyrus Linton Brooks, pro se, moves to supplement the record to include photographs
taken by Milwaukee Police Department employee Michelle Hoffman of the crime scene; in
particular, three sets of footprints crossing the hood of the 1985 Lincoln Town Car, including toscale versions of these photographs with a tape measure beside them. The State has not objected
or otherwise responded to the motion.

The record on appeal may include “[ejxhibits material to the appeal whether or not
received in evidence.” See Wis. Stat. Rule 809.15(l)(a)9 (2013-14).1 Because it appears that
the footprints are relevant to the collateral postconviction order from which this appeal is taken,
i

All references to the Wisconsin Statutes are to the 2013-14 version unless otherwise noted.
Appendix - L.

■

.1—.

. ... Jl.l'.,*.,.

• —kl-»».*A<5-w»«Si. S'

T-v; -■■

aftggeg

J

No. 2016AP974

we conclude that good cause is shown to supplement the record if the photographs, which were
not filed in the circuit court, can be located.
Because the photographs were taken by the Milwaukee Police Department, and should
therefore be in the Department’s custody, we will direct the district attorney to cause the abovelisted photographs to be filed with the clerk of the circuit court.
IT IS ORDERED that the motion to supplement the record is granted.
IT IS FURTHER ORDERED that the district attorney shall obtain the above-listed
photographs from the Milwaukee Police Department and cause them to be filed with the clerk of
the circuit court no later than August 15, 2016.
IT IS FURTHER ORDERED that: the clerk of the circuit court shall file a supplemental
return to include the photographs no later than five days, from the date they are filed in the circuit
court.
IT IS FURTHER ORDERED that the appellant’s brief shall be filed no later than fifteen
days after the date the record is supplemented.

Diane M. Fremgen
Clerk of Court ofAppeals

2

App=

L/l,

;

*

• V

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN

CYRUS LINTON BROOKS,
Petitioner,
v.

Case No. 17-C-1718

RANDY HEPP,
Respondent.

ANSWER OPPOSING A PETITION FOR WRIT OF HABEAS CORPUS

Respondent, Randy Hepp, by his undersigned attorney, Sara Lynn
Shaeffer, answers petitioner Cyrus Linton Brooks’ petition for a writ of habeas
corpus under 28 U.S.C. § 2254 as follows:
CUSTODY, JURISDICTION, VENUE, and TIMELINESS
The subject of Brooks’ habeas petition concerns his judgment of
conviction in Case No. 2011CF1651, entered in Milwaukee County Circuit
Court. (Dkt. 1:2.) In that case, a jury found Brooks guilty of first-degree
reckless homicide as a party to a crime (PTAC). Respondent attaches a copy of
the judgment of conviction in Brooks’ case as Exhibit A.
Brooks, a person held in custody at Fox Lake Correctional Institution,
claims that his custody is in violation of the United States Constitution. His

. . \,

Appendix - N.
Case l:17-cv-01718-WCG Filed 02/28/18 Page 1 of 13 Document 10

:!

petition for a writ of habeas corpus is properly brought pursuant to 28 U.S.C.
§ 2254.
The federal habeas corpus petition in this case is the first Brooks has
filed challenging his conviction in Case No. 2011CF1651. It is not a second or
successive petition. Respondent concedes that this Court has jurisdiction over
Brooks’ habeas petition.
Brooks is serving a sentence imposed by a state court within the same
federal district. This case is properly venued in this Court. 28 U.S.C. § 2241(d).
As will be described below, direct review of Brooks’ judgment of conviction
in the Wisconsin courts began on May 11, 2015, which is ninety days from
February 10, 2015, when the Wisconsin Supreme Court denied his petition for
review.
Respondent concedes that Brooks’ habeas corpus petition was timely
filed in this Court within the one-year limitations period specified by 28 U.S.C.
§ 2244(d)(1)(A).
STATE COURT PROCEDURAL HISTORY
A jury convicted Brooks of first-degree reckless homicide (PTAC) on
October 13, 2011. (Exhibit A.) As described in the court of appeals’ direct
appeal decision, some of the facts are as follows:
1f2 Brooks and his co-defendant, Maurice Stokes, were charged
with shooting and killing Terry Baker. They were tried separately. At
Brooks’ trial, Julius Turner described incidents that occurred the night
before the shooting and on the day of the shooting. He said the night
App. N/l.
Case l:17-cv-01718-WCG Filed 02/28/18 Page 2 of 13 Document 10
2

(Exhibit K:2—3, 5.) Habeas relief is only available if a petitioner can
demonstrate he is in custody in violation of the Constitution, laws, or treatises
of the United States. 28 U.S.C. § 2254(a). Because Brooks has not identified
any such violation, habeas relief is unavailable.
Ground Seven. Respondent denies that Brooks is entitled to relief on
his claim that his postconviction counsel was ineffective for failing to raise
claims “As Instructed To Do So By Defendant.” (Dkt. 1:23.) According to
Brooks, the standard is not “clearly stronger,” but “cause and prejudice.” (Dkt.
1:23.) The court of appeals rejected this argument in Brooks’ collateral appeal:
When a defendant alleges that postconviction counsel was ineffective by
failing to pursue a claim of ineffective assistance of trial counsel, the
defendant must establish that trial counsel was, in fact, ineffective.
State v. Ziebart, 2003 WI App 258, 115, 268 Wis. 2d 468, 673 N.W.2d
369. A claim that trial counsel was ineffective must set forth the
relevant facts as to the “who, what, where, when, why and how” counsel
was ineffective. State v. Allen, 2004 WI 106, 136, 274 Wis. 2d 568, 682
N.W.2d 433. Moreover, “a defendant who aheges in a [WIS. STAT.]
§ 974.06 motion that his postconviction counsel was ineffective for
fading to bring certain viable claims must demonstrate that the claims
he wishes to bring are clearly stronger than the claims postconviction
counsel actually brought.” RomeroGeorgana, 360 Wis. 2d 522, 14.
Brooks contends that he need not demonstrate that his current
issues are “clearly stronger” than the issues his postconviction counsel
pursued in order to demonstrate that his postconviction counsel was
ineffective. He argues that the “clearly stronger” test is not the only
means of establishing ineffective assistance of counsel. In support,
Brooks cites federal case law setting forth the standard for overcoming
the procedural bar to obtain review in a federal habeas corpus action.
See, e.g., Freeman v. Lane, 962 F.2d 1252 (7th Cir. 1992) (petitioner not
barred from raising claims in federal habeas corpus action despite
failing to raise claims in earlier state appeal; petitioner’s direct appeal
counsel was ineffective by fading to raise issue in direct state appeal
that warranted relief in federal court). We are not persuaded. Our
App. N/2.
9
Case l:17-cv-01718-WCG Filed 02/28/18 Page 9 of 13 Document 10

supreme court stated in Romero-Georgana that the “clearly stronger”
standard applies to claims of ineffective assistance of postconviction
counsel following a direct postconviction motion. See Romero-Georgana,
360 No. 2016AP974 5 Wis. 2d 522, T|46 (“The ‘clearly stronger’ standard
is appropriate when postconviction counsel raised other issues before
the circuit court, thereby making it possible to compare the arguments
now proposed against the arguments previously made.”). Nothing in the
federal cases that Brooks cites provides a different standard for a WIS.
STAT. § 974.06 motion following an earlier direct postconviction motion.
Thus, at the outset, Brooks has failed to overcome the Escalona-Naranjo
procedural bar because he has not attempted to demonstrate that the
issues he raises now are “clearly stronger” than the issues his
postconviction counsel pursued on his behalf. See Romero-Georgana, 360
Wis. 2d 522, 146.
(Exhibit K:4-5.) Brooks has procedurally defaulted because the court of
appeals determined this issue of state law procedural grounds. He is not
entitled to relief on this claim.
Ground Eight. Finally, Respondent denies that Brooks is entitled to
relief on his claim that he is actually innocent. (Dkt. 1:26.) Brooks uses the
“gateway claim” of ineffective assistance of counsel to argue actual innocence.
(Dkt. 1:27.) However, because Brooks cannot prove that he received ineffective
assistance of counsel, his actual innocence claim fails. Additionally, Brooks
fails to identify any “new reliable evidence” as required by Schlup v. Delo, 513
U.S. 298 (1995).
AFFIRMATIVE DEFENSES
This Court can address the merits of Brooks’ claims only if he exhausted
state remedies and if his claims are not procedurally defaulted. Has
procedurally defaulted on Ground Three, that his trial counsel was
App. N/3.
10
Case l:17-cv-01718-WCG Filed 02/28/18 Page 10 of 13 Document 10

Attachment -

05-04396 BAKER, TERRY J.
Milwaukee County Medical Examiner
933 West Highland
Milwaukee, Wisconsin 53233

AUTOPSY PROTOCOL
NAME: BAKER, TERRY J.

SEX: MALE

AGE: 21 YEARS
DOB: 05/27/1984

DATE OF DEATH:

OCTOBER 29, 2005

TIME: 1240 HOURS

DATE OF AUTOPSY:

OCTOBER 30, 2005

TIME: 1000 HOURS

PLACE OF AUTOPSY:

Milwaukee County Medical Examiner's Office

PERFORMED BY:

K. Alan Stormo, M.D.
Assistant Medical Examiner

WITNESSED BY:

Amanda Arndt /
Forensic Pathology Assistant
Detective Djordje Rankovicj
Milwaukee Police Department
Identification Technician Sylvia Filapek
Milwaukee Police Department

CAUSE OF DEATH:
DUE TO:

Exsanguination
Gunshot Wound to Chest

Signed

JF-K. Alan Stormo, M.D.
Assistant Medical Examiner

Date Signed

NOTES BY: WE TYPE/CSD, MEDICAL TRANSCRIBER

Appendix - 0.

3

,

11

_

i

Attachment

STATE OF WISCONSIN

CIRCUIT COURT
CRIMINAL DIVISION

MILWAUKEE COUNTY

STATE OF WISCONSIN

DA Case No.: 2011ML005159
Plaintiff,

vs.
Cyrus Linton Brooks

Court Case No.: 2011CF001651

e?.l1

Defendant,

S&u.

I

I

I

■_

n • -. .."~7 I

,2ji ' sFp £7

STATE’S WITNESS LIST

n

^

I
The State of Wisconsin does hereby give notice that the following witnesses may be
called in the state's case-in-chief at the trial of the above-entitled matter
POLICE
Det. David Chavez
Det. Billy Ball
Det. Mark Peterson
Det. James Hutchinson
Lt. Randy Olson
" LtrDavidSalazar
Det. Erik Villarreal
Det. Louis Johnson
Det. Thomas Fischer
Det. Larry DeValkenaere
Det. Djordje Rankovic
Det. Carl Buschmann
PO Gregory Heaney
PO Maurice Woulfe

- ---------

----------------------

CITIZENS
Julius Turner
Michael Henderson
Daniel Carter
Lt. Linda Mattrisch
Janice Baker
Dr. Brian Peterson
Mark Simonson
Dated at Milwaukee, Wisconsin, this^jday of
•temberi 2011.
R<

iliyflsubmitted,

Denis J. Stingl
Assistant District Attorney
1009627

Appendix - P.
App.

*
\
**,

i

X

i

i

Attachment - #3.

STATE OF WISCONSIN

CIRCUIT COURT
CRIMINAL DIVISION

STATE OF WISCONSIN

MILWAUKEE COUNTY

DA Case No.: 2011ML005159
Plaintiff,

vs.
Cyrus Linton Brooks

Court Case No.: 2011CF0gj$51i

Defendant,

] 5
jSR]

SEP % 7 2011

Z'.j

I 23 i

J

JOHN bAMRF-TTj

NOTICE OF EXPERT TESTIMONY

____________ J

Pursuant to Wisconsin Statutes section 971.23(1 )(e), the State of Wisconsin offers the
following summary of the testimony of expert witnesses:
1) Milwaukee County Medical Examiner, Dr. Brian Peterson.
Doctor will testify to the autopsy and the contents of the written autopsy protocol.
Should the defendant require a copy of the curriculum vitae or resume of Dr. Brian Peterson, a
copy may be obtained at the office of the Milwaukee County Medical Examiner’s office, 933 W.
Highland Avenue, Milwaukee, Wisconsin.
2) State Crime Laboratory-Milwaukee Analyst Mark Simonson
Analyst will testify to the findings in the crime lab pertaining to the above case.

Dated at Milwaukee, Wisconsin, this

>1

ly of September, 2011.
:espectfully submitted

Denis J. Stingl
Assistant District Attorney
State Bar No. 1009627

P.O. Mailing Address
District Attorney’s Office
Safety Building, Room 405
Milwaukee, Wl 53233
Voice: (414)278-4646

App.

Appendix - Q
Add.

